      U.S. Department of Education


  Office of Inspector General




Semiannual Report to Congress, No. 54
     October 1, 2006 —March 31, 2007
                                  Message to Congress
We are pleased to provide this semiannual report on the activities and accomplishments of
the Office of Inspector General (OIG), U.S. Department of Education (Department) from October
1, 2006, through March 31, 2007, as required by the Inspector General Act of 1978. The audits,
inspections, investigations, and other activities highlighted in this report illustrate our on-going
commitment to promoting accountability, efficiency, and effectiveness in federal education
programs and operations.

Over the last six months, OIG issued 46 audit, inspection, and alternative product reports. We
identified over $447 million questioned costs and over $113 million unsupported costs. Audits,
inspections, and investigations concluded during this reporting period continued to uncover
problems with the Department’s internal controls, placing federal funds at risk of waste, fraud, and
abuse. Summaries of our work are highlighted in this report. As stated in our recent Management
Challenges report, the success of an organization’s mission and the achievement of its goals
depend on how well it manages its programs. It cannot effectively manage its programs without
establishing and maintaining appropriate internal controls and accountability. The Department
must ensure that all entities involved in its programs are adhering to statutory and regulatory
requirements, and that the offices responsible for administering these programs are providing
adequate oversight of program participants.

In recent months, in response to our audits of the Reading First program and special allowance
payments made to the student lender Nelnet, Inc., (Nelnet)–where we identified significant
lapses in internal control, Secretary Spellings made a commitment to correcting the deficiencies
identified in those audits. With Reading First, the Secretary agreed to fully implement our
recommendations, and these improvements and corrective actions are already underway. In
response to our audit of special allowance payments made to Nelnet, the Department reached a
settlement that protects the taxpayers from potentially $882 million in future improper payments.
Although we also recommended recovery of approximately $278 million in funds already paid
to Nelnet, we are pleased that the Department accepted our audit findings and acted to protect
the taxpayers from further losses. These issues are discussed in more detail in the pages of this
Semiannual Report. Please know we are continuing our work in this area to protect the integrity
of the Federal Family Education Loan program. We are also working with Department officials
on implementation of new audit guidance, which was issued in late April.

Finally, as you work to reauthorize the Elementary and Secondary Education Act of 1965, as
amended by the No Child Left Behind Act of 2001 (NCLB), I would like to bring to your attention
our significant body of work on a number of key provisions of the law. For the last six years,
my office has worked to help the Department ensure NCLB dollars are allotted and used in
accordance with the law and applicable regulations so they reach the intended recipients. We
have released over 100 NCLB-related reports, providing recommendations for the Department to
improve its administration of the programs or that of its grantees. In instances where we identified
areas of the law that may need further clarification or enhancement, we have made suggestions for
Congress to consider. Our final reports can be accessed via our website at www.ed.gov/offices/
oig, and we are available to discuss them with you in more detail, should you require additional
information.

Thank you for your continued support of our efforts. I look forward to working with the 110th
Congress in furthering our goals and achieving our mission.
                                                                     John P. Higgins, Jr.
                                                                     Inspector General
                                                          Contents
Overview 		 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
	 Internal Controls and Accountability in State and Local Programs .  4
	    No Child Left Behind
  		 Reading First. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4
			 RMC Research Corporation Contracts. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6		
			 Reading Leadership Academies. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6		
			 Georgia Reading First Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7		
			 New York Reading First Program. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7
			 Wisconsin Reading First Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7		
		 Supplemental Educational Services. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8		
		 Migrant Education Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .8
			 California . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .9
		 Performance Data – Reported Graduation and Dropout Rates . . . . . . . . . . . . . . . 9		
			 Oklahoma. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9		
			 Washington State . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10		
		 Comparability of Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10		
			 Arizona. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
			 Ohio 	 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10		
		 Schoolwide Plans . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
			 Indiana . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  11
			 Michigan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  11		
	    Grantee Accountability
		 Bureau of Indian Affairs and the Individuals with Disabilities Education Act . . 12
			 BIA Administration of IDEA, Part B . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12		
			 Department of Education’s Oversight of Interior’s IDEA, Part B Program. . 13
		 Parental Information and Resources Center Grants
			 The Learning Exchange . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13		
		 Congressional Earmark Recipients
 			 KIPP Foundation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14		
		 High-Risk Grantees
			 Virgin Islands. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14       
	 Investigations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

Internal Controls and Accountability in Student Financial Assistance
Programs 		 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .16
	    Follow-up to Audit of Special Allowance Payments Made to Nelnet . . . . . . 16
	    Audit Reports
		      Philander Smith College . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17	
		      FAFSA Verification . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17	
	    Investigations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18




                                                                   i
Internal Controls and Accountability in Financial Management and
Department Operations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
	    Financial Management
			       Financial Statement Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20	
			       Additional Work . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21	
			       Drug Control Funds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21	
	    Department Operations
			 Department’s Competitive Sourcing/A-76 Competition . . . . . . . . . . . . . . . . . . . 21	
			 Controls Over Excessive Drawdowns By Grantees. . . . . . . . . . . . . . . . . . . . . . . . 22
					 Specific Recommendations for OPE and OII . . . . . . . . . . . . . . . . . . . . . . . . 22	
			 Controls Over Contract Monitoring for IES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22	
			 IT Equipment Inventory . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . . 23	
	 Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
	
Hurricane-Related Efforts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
      Controls Over Hurricane Education Recovery Funding . . . . . . . . . . . . . . . . . 25

Other Noteworthy Efforts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
      Nonfederal Audits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
	 	President’s Council on Integrity and Efficiency . . . . . . . . . . . . . . . . . . . . . . . . . 26
			 GAO/PCIE Financial Audit Manual Update . . . . . . . . . . . . . . . . . . . . . . . . . . .. . . 26	
			 GAO/PCIE Financial Statement Audit Roundtable . . . . . . . . . . . . . . . . . . . . . . . . 26
			 Joint PCIE/CFOC Working Group .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26     
	 New ID Theft ID . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

SAR 54 Tables
	 Reporting Requirements of the IG Act, as Amended . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  27 	
	 Table 1: 	 Recommendations Described in Previous SARs on Which Corrective Action 	 	
							 Has Not Been Completed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
	 Table 2: 	 OIG Audit Reports on Department Programs and Activities
							 (October 1, 2006, to March 31, 2007). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  29	
	 Table 3: 	 Other OIG Reports on Department Programs and Activities
		 					 October 1, 2006, to March 31, 2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  34	
	 Table 4: 	 OIG Issued Audit Reports with Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . 34	
	 Table 5: 	 OIG Issued Audit Reports with Recommendations for Better Use of Funds. .  35	
	 Table 6: 	 Unresolved Reports Issued Prior to October 1, 2006. . . . . . . . . . . . . . . . . . . . .  36	
		Table 7: 	 Statistical Profile: October 1, 2006, to March 31, 2007 . . . . . . . . . . . . . . . . . .  42




                                                                 ii
                                        Overview
The Office of Inspector General (OIG), for the period October 1, 2006, through March 31,
2007, continued its work to promote efficiency, effectiveness, and integrity in the programs
and operations of the U.S. Department of Education (Department). Audits, inspections, and
investigations concluded during this reporting period continued to uncover problems with
the Department’s internal controls, placing federal funds at risk of waste, fraud, and abuse.
As we stated in our recent Management Challenges report, the success of an organization’s
mission and the achievement of its goals depend on how well it manages its programs. It
cannot effectively manage its programs without establishing and maintaining appropriate
internal controls. “Internal controls” are the plans, methods, and procedures aimed at helping
an agency meet its goals and achieve its objectives, while minimizing operational problems.
Only by improving its internal controls and demanding accountability by its managers,
staff, contractors, and grantees, can the Department be an effective steward of the billions of
taxpayer dollars supporting its programs and operations. America’s students and taxpayers
deserve nothing less.

The U.S. Congress has long recognized the importance of internal controls in federal
program management, beginning with the Budget and Accounting Procedures Act of
1950, which placed responsibility for establishing and maintaining adequate systems of
accounting and internal control upon the head of each agency. In 1982, Congress passed
the Federal Managers’ Financial Integrity Act (FMFIA), requiring federal agencies to
establish internal controls over their programs and financial systems. The FMFIA also
required the Comptroller General to issue standards for internal control in government.
Passage of new laws and requirements for federal agencies, along with advancements in
technology highlighted the need to update the standards through the years. In 1999, the
Government Accountability Office (GAO) released “Standards for Internal Control for the
Federal Government” that provides an overall framework to help agencies establish and
maintain internal control, as well as identify and address major performance and management
challenges and areas at greatest risk of fraud, waste, abuse, and mismanagement.

According to the GAO report, there are five standards for internal control: (1) control
environment, which is the foundation for all other standards; (2) risk assessment; (3) control
activities; (4) information and communications; and (5) monitoring. These standards define
the minimum level of quality acceptable for internal control in government and provide the
basis against which an agency’s internal operations are to be evaluated. Work concluded over
the last six months found that one or more of these standards was weak in the Department’s
management, monitoring, or oversight of the programs and operations we reviewed.

In the first section of our report, we provide a summary of our recent work in the area of
elementary, secondary, and special education programs. A lapse in internal controls by the
Department in these programs can have a significant impact on other entities involved in the
programs. Perhaps nowhere is this more evident than in our recent reviews of the Reading
First program, where weaknesses in all five internal control standards at the Department
existed throughout the program. Following the release of our first report on the Reading
First program, Secretary Spellings stated her intention to fully implement every one of our
recommendations. You will find more on our Reading First work in this section of our
report, along with highlights of our efforts in the area of elementary, secondary, and special
education. This includes our continuing efforts to assess state educational agency (SEA)
and local educational agency (LEA) compliance with requirements of the Elementary


                                          1
and Secondary Education Act of 1965, as amended (ESEA) by the No Child Left Behind
Act of 2001 (NCLB), such as the Migrant Education program, comparability of services
requirements, and the reporting of graduation and dropout rates. Each of these areas relies
heavily on the quality and reliability of data, which in turn relies heavily on an effective
control environment to ensure the data is collected, maintained, and reported accurately.
This section of the report also includes summaries of work identifying grantee accountability
issues, and weaknesses in Department monitoring and oversight of its grantees, including
$217 million in education funds that may well be at risk of waste, fraud, or abuse. This
section also includes summaries of cases we have closed over the past six months involving
fraud by individuals placed in positions of trust within the elementary, secondary, or special
education community.

For 27 years, helping the Department to identify and reduce waste, fraud, or abuse, in
the student financial assistance programs has been a top OIG priority. With $77 billion
awarded last year through the student financial assistance programs and an outstanding
loan portfolio of over $400 billion, the Office of Federal Student Aid (FSA) must provide
adequate oversight and demand accountability from its staff, partners, and participants to
help protect these taxpayer dollars from waste, fraud, and abuse. In the second section of
this report you will find summaries of our recent work in this area. In our last Semiannual
Report to Congress (SAR), No. 53, we discussed audit findings that identified significant
lapses in management and accountability in the Federal Family Education Loan (FFEL)
program, specifically a lack of an acceptable level of internal control by FSA’s Financial
Partners, and our audit of special allowance payments made to the student lender Nelnet,
Inc. (Nelnet), which estimated that the lender was improperly paid more than $278 million,
and could be improperly paid approximately $882 million more if its billings are not
corrected. When dealing with a program of this size and complexity, employing effective
internal controls is critical in order for the Department to provide reasonable assurance that
its assets and programs are protected. To date, the Department has not taken any action on
the recommendations included in our Financial Partners audit. Regarding our Nelnet audit,
in January, the Department announced it had reached a settlement with Nelnet that prohibits
any future special allowance payments to the lender at the 9.5 percent floor rate on loans that
were not made from eligible sources of funds. Although we also recommended recovery
of approximately $278 million in funds already paid to Nelnet, we are pleased that the
Department accepted our audit findings and acted to protect the taxpayers from further losses.
You will find more information on the settlement and related follow-up activities to the audit
in this section of the report, along with summaries of some of the investigative cases we
closed involving theft of student financial aid funds.

The third section of this report highlights the audits and reviews we completed on the
Department’s financial management and internal operations – areas where effective
implementation of internal controls minimizes an agency’s vulnerability to waste, fraud, and
abuse. Since 2002, the Department has made progress in improving internal controls in its
financial management, which have led to the agency receiving a “clean” audit opinion five
years in a row. While this improvement is significant and noteworthy, recent audits of the
Department’s and FSA’s financial management identified weaknesses in internal control,
specifically in the area of information technology (IT) security. In addition, work concluded
over the last six months shows continued inadequacies with the Department’s internal
monitoring and control activities—two of the five standards of internal control. Our results
show a need for the Department to improve its physical controls to secure and safeguard
vulnerable assets, as well as a need for improvements in its monitoring performance


                                          2
measures and indicators to ensure that its resources are used efficiently. The Department
must also improve its controls to ensure that its contractors are delivering appropriate
services. More discussion on these findings, as well as summaries of internal investigations
that were closed during this reporting period can be found in this section of the report.

In the fourth section of our report, we provide an update on our work regarding funds being
used to support education-related hurricane recovery efforts. Like most federal agencies,
we consider stewardship of these funds to be one of our highest priorities. With such a large
amount of funding needing to be distributed in a short amount of time, employing the five
standards of internal control in this area is vital. As the bulk of our work in this area is still
underway, we highlight only our completed work in this section of the report.

OIG constantly strives to improve its operations through our work with the IG community.
In the fifth section of this report, we highlight a number of our contributions and the work we
accomplished over the last six months within the IG community.

In the sixth and final section of this report, there is a compilation of tables of the audits,
inspections and investigations we concluded during this reporting period, as required by the
Inspector General Act of 1978, as amended.

For more information on the work or activities discussed in this report, please contact the
OIG Congressional Liaison at (202) 245-7023, e-mail us directly at oigpublicaffairs@ed.gov,
or visit our website at www.ed.gov/offices/oig.




                                           3
                   Internal Controls and Accountability in
                         State and Local Programs
The Department’s elementary and secondary programs serve more than 14,600 school
districts and approximately 54 million students attending more than 94,000 public schools
and 27,000 private schools each year. In recent years, we have increased our resources in
reviewing allegations of waste, fraud, or abuse in this area, and our findings have indicated
a need for improved internal controls. Lapses in internal controls by the Department or
any other entity engaged in K-12 programs can have a significant impact on other entities
involved in the program. Perhaps nowhere is this more evident than in our recent reviews of
the Reading First program, where a breakdown of all five internal control standards by the
Department—lack of a control environment, failure to conduct an effective risk assessment,
lack of control activities, poor information and communication, and an overall lack of
monitoring by management existed throughout the program, negatively impacting the states,
damaging the program’s integrity, and leading to questions as to whether Department staff
violated established prohibitions on influence over curriculum. In response to our work,
Secretary Spellings has taken action to address the findings of our reports, and has already
begun implementing our recommendations.

Recent work in other areas of elementary, secondary, and special education continue to show
a need for improved internal controls, not only by the Department, but by grantees as well.
During this report period, we continued our reviews of SEA compliance with requirements
of the Migrant Education program, and the reporting of graduation and dropout rates.
These issues rely heavily on the quality and reliability of data, which in turn rely heavily
on effective internal controls to ensure data is collected and maintained accurately. This is
an important issue, as the consequences of poor data quality can be serious for SEAs and
LEAs: schools and districts could be erroneously defined as being in need of improvement
or corrective action, and ultimately not making annual yearly progress goals. With so much
dependent on data, ensuring data integrity is without question a critical aspect of NCLB.

Finally, we continue to uncover issues with accountability by grantees and weaknesses
in Department internal control standards specifically related to monitoring and oversight.
This includes education funds provided to other federal government agencies, such as
the U.S. Department of the Interior’s Bureau of Indian Affairs, where our work recently
identified $217 million in education funds that may well be at risk of waste, fraud, or
abuse. Below you will find more information on our recent work in the area of grantee
accountability, as well as brief summaries of some of the significant investigative cases we
closed over the last six months involving theft of federal education dollars by those in a
position of trust to educate our children.

No Child Left Behind
Reading First
During this reporting period, we concluded our series of audits on the Reading First
program. Reading First is a $1 billion per year program included in the NCLB, and was
established to provide kindergarten through third grade reading programs that are based on
scientifically based reading research. The goal of the program is to ensure that every student
can read at grade level or above by the end of the third grade. In May 2005, OIG began
receiving allegations about Reading First. The allegations indicated that the Department was


                                         4
                    promoting and excluding specific programs and assessments, as well as
                    using consultants with ties to these programs and assessments. We also
                    received letters from members of Congress asking us to look into these
                    allegations. OIG performed a series of reviews on various aspects of the
                    program: (1) the Department’s grant application process (discussed in
                    SAR 53); (2) the Department’s administration of selected aspects of the
                    Reading First program; and (3) RMC Research Corporation’s (RMC)
                    administration of the Reading First program contracts. We also conducted
                    three audits to assess state compliance with the Reading First provisions
                    of the NCLB in (4) Georgia, (5) New York, and (6) Wisconsin. These
audits sought to determine whether the SEA developed and used criteria for selecting the
scientifically based reading research (SBRR) programs in accordance with laws, regulations,
and guidance, and if it approved the LEAs applications in accordance with laws, regulations,
and guidance.

Through our work we found that the Department: (1) appeared to inappropriately influence
the use of certain programs and assessments; (2) failed to comply with statutory requirements
and its own guidance; (3) obscured the requirements of the statute; and (4) created an
environment that allowed real and perceived conflicts of interest. First, with regard to
inappropriate influence, we found that the Department allowed certain activities that led,
in part, to a perception that there was a Department approved list of reading programs and
assessments. An example of this was the Reading Leadership Academies (RLAs). The
Department and the National Institute for Literacy (NIFL) sponsored three RLAs to assist the
states in preparing Reading First applications. The Department exercised control over the
content and presenters for the RLAs. Of ten “Theory to Practice” presentations at the three
RLAs, six contained information on the Direct Instruction program. The luncheon speaker
for two of the RLAs also focused on the Direct Instruction program. Some participants in
the RLAs expressed concerns about the content of the sessions. While the Department was
aware of this issue, it failed to change course, resulting in similar comments concerning the
third RLA. We also identified, after the conclusion of the state application process, instances
where it appears that there may have been intervention by Department officials with regard to
the programs that states and LEAs were choosing for Reading First.

With regard to the Department’s compliance with the Reading First statute and its own
guidance, the statute called for a balanced expert panel to review Reading First applications.
The expert panel was to consist of a minimum of three experts nominated by the NIFL,
the National Institute of Child Health and Human Development, the National Academy of
Sciences, and the Department. Senior Department officials decided to use sub-panels for the
review process and to create an “Advisory and Oversight Panel” with three representatives
from each of the four organizations as required by the statute. The Advisory and Oversight
Panel concept was never implemented and as a result the process used by the Department
was not in accordance with the requirements of the statute, since none of the sub-panels
created by the Department included representation from each of the four nominating
organizations. In fact, the majority of the individuals on 15 of the 16 sub-panels were
nominated by the Department, not by the other organizations, and 7 of the sub-panels were
comprised of individuals nominated entirely by the Department. In addition, we found
that the Department obscured the requirements of the statute by inappropriately including
standards in the application criteria that were not based on the statutory language and
excluding standards that were required by the statute.



                                         5
With regard to conflict of interest, our work found that the Department did not place an
appropriate level of emphasis on issues related to conflicts of interest. This can be seen
in two specific areas. First, although not required, the Department developed a process
to screen expert review panelists for conflicts of interest; however, the Department’s
process was not effective. The Department did not ask panelists if they were aware of any
circumstances that might cause someone to question their impartiality. In addition, the
Department did not review the panelists’ resumes for potential conflicts of interest. Second,
the Department’s contractor, RMC, which was used to provide technical assistance to states
and assist the states in preparing applications, did not adequately address conflict of interest
issues. Neither RMC nor the Department ensured that the required organizational conflict
of interest clause was included in its consultant and subcontractor agreements. In addition,
RMC did not adequately vet technical assistance consultants for potential bias. As a result,
during our work, we noted that appearances of bias or impaired objectivity existed.

Overall, our work shows that the Department failed to comply with all of the requirements
within the statute and created requirements that were not required by the statute. In addition,
the Department’s actions call into question whether it violated provisions of the Department
of Education’s Organization Act (DEOA) and the ESEA that prohibit Department officials
from exercising any direction or control over the curriculum or program of instruction
of a school. Based on our findings, we made a number of recommendations, with which
Secretary Spellings fully concurred and has already begun to implement. We also suggested
that Congress consider clarifying whether reading programs need to have scientific evidence
of effectiveness in order to be eligible for funding under Reading First and clarifying conflict
of interest requirements in federally funded programs.

Below are summaries of the five Reading First reports we issued during this reporting period.

	   RMC Research Corporation Contracts: Our audit sought to determine whether:
    (1) RMC and its subcontractors (the technical assistance centers or TACs) provided
    appropriate assistance to SEAs and LEAs; (2) RMC (including subcontractors and
    employees) complied with its own and\or the contracts’ conflict of interest (COI)
    requirements; and (3) RMC provided appropriate guidance and information to the TACs.
    Our audit disclosed that RMC did not adequately address COI issues during the first
    two contracts; did not include the required COI clause in its subcontracts and consulting
    agreements; did not adequately vet technical assistance providers for reading product
    relationships and affiliations; and did not have formal COI policies and procedures.
    Based on our findings, we recommended that the Department and RMC develop and
    implement formal COI policies and procedures for use in the current Reading First
    contract and any other current or future Department contracts, as well as determine
    and mitigate or neutralize any instances of bias or impaired objectivity that exist for all
    technical assistance providers. RMC concurred in principle with our finding and fully
    concurred with our recommendations.

	   Reading Leadership Academies: This review sought to determine whether the
    Department carried out its role, in accordance with applicable laws and regulations, in
    administering the RLAs and related meetings and conferences, its award process for
    the National Center for Reading First Technical Assistance (NCRFTA) contract, and
    its website and guidance for the Reading First program. Our audit disclosed that the
    Department generally administered its Reading First website and related guidance in
    accordance with applicable laws and regulations. As for the RLAs, we concluded that


                                          6
    the Department did not have controls in place to ensure compliance with curriculum
    provisions of the DEOA and NCLB. We also found that the Department did not
    adequately assess issues of bias and lack of objectivity when approving individuals to
    be technical assistance providers before and after the NCRFTA contract was awarded.
    Based on our findings, we made a number of recommendations with which the
    Department concurred and proposed corrective action; however, it only agreed in part
    with our findings.

	   Georgia Reading First Program: We found that the Georgia Department of Education
    (GDOE) did not have written policies and procedures in place and did not adequately
    manage several areas of the LEA grant application process. We recommended that the
    Department require GDOE to develop written policies and procedures for its LEA and
    school grant application process to ensure it follows state and federal Reading First law,
    regulations, and guidelines in administering the Reading First grant application process
    and program. GDOE did not agree with all parts of our finding, but did concur with the
    recommendation.

	   New York Reading First Program: We found that although New York State
    Department of Education (NYSED) generally developed and used criteria for selecting
    the scientifically based reading research programs in accordance with the law as
    interpreted by the Department, NYSED did not approve LEA applications in accordance
    with laws, regulations and guidance. Specifically, NYSED could not provide support that
    approved LEAs, which received $216 million in Reading First funds, met requirements
    of the ESEA. NYSED also inappropriately used priority points to approve LEAs that
    received $118 million in Reading First funds, and did not follow established record
    retention requirements.  Based on our findings, we made several recommendations,
    including that the Department require NYSED to provide support to demonstrate that the
    reading programs at each of the nine LEAs awarded Reading First subgrants meet the
    ESEA required activities or return the unsupported funds, and ensure that priority points
    are used in accordance with ESEA requirements and that all Reading First applications
    were scored correctly, or return $118 million of unallowable Reading First funds.
    NYSED concurred with all but two of our recommendations.

	   Wisconsin Reading First Program: We found that the Wisconsin Department of
    Public Instruction (WDPI) developed and used criteria for selecting the SBRR programs
    in accordance with the law as interpreted by the Department. WDPI, however, did
    not always approve the LEAs’ applications in accordance with the law and regulations
    related to implementing high-quality programs. Based on our findings, we recommended
    that the Department require WDPI to provide support for nine of its Reading First
    funded programs that lacked sufficient documentation that the programs met eligibility
    requirements or return the funding provided to the LEA to the Department. We also
    recommended that it implement and follow policies and procedures to provide reasonable
    assurance that all funded LEA applications clearly demonstrate that the requirements of
    Reading First are met prior to receiving Reading First funds. WDPI concurred with our
    recommendations.




                                         7
         Supplemental Educational Services
         The ESEA requires LEAs to offer supplemental educational services (SES) to
         students from low-income families when the students attend a Title I school that
         is in the second year of school improvement, or has been identified for corrective
         actions or restructuring. SES consists of tutoring, remediation, and other
         educational interventions that are designed to increase the academic achievement
         of students, and are in addition to instruction provided during the school day. SES
         providers must be approved by the state. Over the last several years, OIG has
         completed 11 reviews that evaluated SEA and LEA implementation of the SES
         provisions of the ESEA.

          During this reporting period, we produced an in-depth report titled, An OIG
          Perspective on the Supplemental Educational Services Provisions of the Elementary
          and Secondary Education Act. The report was developed based on the knowledge
          obtained while conducting these reviews, and provides an OIG perspective on
          selected SES provisions in the ESEA and Department regulations. It discusses one
issue relevant to the SES eligibility provisions of the ESEA and provides three alternatives to
the current eligibility rules in the ESEA. Based on our work, we suggest that consideration
be given as to whether the focus of SES eligibility should be on academic proficiency rather
than family income.

The report also discusses one issue relevant to the Department’s implementing regulations
that currently prohibit schools or LEAs identified as in need of improvement from operating
as SES providers. Even though the ESEA contains no specific prohibition, the Department’s
regulations currently prohibit any school or LEA identified as in need of improvement
from operating as an SES provider. In contrast, the Department’s SES guidance allows
SES providers, including schools or LEAs not in improvement status operating as SES
providers, to hire teachers from schools in improvement status for their SES operations. The
Department’s policy of not allowing schools or LEAs in improvement to operate as SES
providers may override SEA authority to evaluate and approve SES providers operating in
their states and may also unnecessarily increase the costs of delivering SES by eliminating
school or LEA providers that could deliver SES at a lower cost than private providers.
This policy may also reduce the provider options available to parents of eligible students.
Therefore, we suggest that the Department reconsider its policy on this matter and explore
strategies for evaluating the quality of each SES program operated by a school or LEA that is
identified as in need of improvement.

Migrant Education Program
The Migrant Education Program (MEP), authorized within the NCLB, provides funds to
states to support high quality education programs for migratory children and help ensure that
migratory children who move among the states are not penalized in any manner by disparities
among states in curriculum, graduation requirements, or state academic content and student
academic achievement standards. Funds also ensure that migratory children are not only
provided with appropriate education services (including supportive services) that address
their special needs but also that such children receive full and appropriate opportunities
to meet the same challenging state academic content and student academic achievement
standards that all children are expected to meet. Funds are allocated to SEAs, based on each




                                         8
state’s per pupil expenditure for education and counts of eligible migratory children, age
3 through 21, residing within the state. Over the last two years, OIG has conducted audits
to determine SEA compliance with the child count provision. In SAR 52, we reported our
findings in Georgia and Oklahoma; in SAR 53 we reported our findings in Arkansas; and
during this reporting period, we concluded an audit in California. Our work in the MEP area
identified problems with MEP student eligibility, and as a result, millions of dollars may have
been appropriated to states for ineligible students.

	   California: Our audit sought to determine whether the California Department of
    Education (CDE) and selected MEP regions within the state have systems in place to
    ensure the accurate count of children eligible to participate in the MEP. California’s MEP
    funding for award year 2003-2004 was $130,703,626. CDE reported to the Department
    a total of 312,062 participating children during the child count reporting period. Our
    audit found that while the CDE and the two MEP regions reviewed had systems in
    place to determine migrant child eligibility and report migrant child count, it included
    ineligible children in its migrant child count, a number of whom were not eligible to
    participate in the MEP because a “qualifying move” had not occurred. Based on our
    findings, we made several recommendations, including that the Department require CDE
    to issue more detailed guidance and training, consistent with policies, on the definition of
    “qualifying move.” We also recommended that the Department require CDE to adjust its
    migrant child count for the time period reviewed and return to the Department any funds
    expended for ineligible children. CDE did not explicitly express concurrence with our
    findings, but expressed varying degrees of concurrence and non-concurrence with our
    recommendations, and described the corrective actions taken or planned to address the
    recommendations.

Performance Data – Reported Graduation and Dropout Rates
Over the last two years, OIG has examined SEA graduation and dropout rates included in the
annual Consolidated State Performance Report (CSPR)–the system by which states apply for
and report on multiple ESEA programs through a single consolidated application and report.
Our audits looked to determine whether SEAs’ required reporting of graduation and dropout
rates were supported by reliable data and met the requirements of the ESEA. In SAR 52,
we reported the results of our work in Texas; in SAR 53, we reported the results of our audit
of South Dakota; and during this reporting period, we concluded reviews in Oklahoma and
Washington state. While the data collection techniques in each state varied, each produced a
similar result: issues of non-compliance with elements of data collection and reporting; and a
lack of effective internal controls to ensure data reliability.

	   Oklahoma: We found that the Oklahoma State Department of Education (OSDE) met
    the requirements of ESEA by reporting graduation and dropout rates; however, it used
    a graduation rate formula that did not meet the requirements of the NCLB graduation
    rate definition. In addition, data used to calculate the dropout rates reported in its
    2003-2004 CSPR was not reliable. We made a number of recommendations, including
    that the Department require OSDE to develop and provide necessary personnel with
    adequate training on graduation and dropout data collection and reporting, and to monitor
    graduation and dropout data collection and reporting at the state, district, and site level.
    OSDE concurred with our findings and recommendations.




                                          9
	Washington State: We found that the state complied with the requirements of ESEA by
 submitting a report; however, the student data used by the State of Washington Office
 of the Superintendent of Public Instruction (WOSPI) to calculate the reported rates
 was not reliable and the required definition of a “high school dropout” was not used
 to calculate the reported dropout rates. Based on our findings, we made a number of
 recommendations, including that the Department require WOSPI to adhere to the CSPR
 instructions for reporting dropout rates. WOSPI concurred with our findings and agreed
 to implement our recommendations.
		
Comparability of Services
To be eligible to receive Title I funds, an LEA must use state and local funds to provide
services in Title I schools that, taken as a whole, are at least comparable to services provided
in non-Title I schools. This is called “comparability of services,” and ensures that an
LEA uses state and local funds to provide services to Title I schools that are, essentially
“comparable,” or “the same” as the services that are provided to non-Title I schools. This
ensures that Title I schools are not discriminated against in the distribution of local resources.
Over the last six months, we concluded two audits to assess SEA compliance with this
provision of the NCLB: one in Arizona, and another in Ohio. Our work identified a need for
improved internal controls by SEAs and LEAs to ensure they are adhering to and complying
with the statute, as well as a need for improved monitoring and oversight to ensure adherence
to and compliance with the statute.

	   Arizona: Our work revealed that the Arizona Department of Education (ADE) needs
    to strengthen its monitoring of LEA compliance with the comparability requirement.
    ADE also needs to ensure that the LEAs reviewed as part of our audit are performing
    comparability determinations properly, including the use of appropriate and correct
    data. We made a number of recommendations, including that the Department require
    ADE to implement procedures to ensure LEA compliance with the NCLB comparability
    requirement, and require LEAs reviewed to submit all required documentation to
    support compliance or return that portion of the over $4 million in Title I funds ADE
    received that was disbursed to them should they fail to demonstrate comparability for
    the school year reviewed. ADE did not explicitly express concurrence with our findings,
    but it did describe the corrective actions it has taken or planned to take to address our
    recommendations.

	   Ohio: Our audit found that that the Ohio Department of Education (ODE) did not ensure
    that LEAs were reporting complete and accurate comparability information. ODE did not
    adequately monitor LEAs’ compliance because it did not always use correct data when
    reviewing the LEAs’ comparability reports. In addition, ODE did not ensure that each
    LEA developed and followed procedures for complying with comparability of services
    requirements during the school years we examined. As a result, ODE cannot ensure that
    the LEAs were reporting complete and accurate comparability information. Based on our
    findings, we made a number of recommendations, including that the Department require
    ODE to provide sufficient and verifiable documentation to support compliance with
    the comparability of services requirements or return to the Department funds that were
    allocated to non-comparable schools. ODE did not dispute our findings and generally
    concurred with all but one of our recommendations.




                                          10
                            Schoolwide Plans
                             NCLB allows schools in an area with a poverty level of 40
                             percent or more, or in which at least 40 percent of enrolled
                             students are from low-income families, to operate schoolwide
                             programs. Schools operating schoolwide programs may use
                             Title I funds to upgrade the entire educational program in a
                             school in order to improve the academic achievement of all
                             students, particularly the lowest-achieving students. The
                             school must develop a comprehensive schoolwide plan in
                             consultation with the LEA and its school support team or another
                             technical assistance provider, and the school community. The
comprehensive plan must: (1) describe how the school will implement the schoolwide
program components; (2) describe how the school will use resources to implement the
schoolwide program components; (3) include a list of SEA, LEA, and other federal programs
for which the school will consolidate funds to use in its schoolwide program; and (4)
describe how the school will provide individual student academic assessment results to
parents. During this reporting period, we concluded two reviews in this area: one in Indiana
and another in Michigan. The audits sought to determine: (1) if the SEAs and LEAs had
adequate processes in place to ensure that schoolwide schools had schoolwide plans that
included all required elements and that these schools implemented their schoolwide plans;
(2) if the schoolwide plans for selected schools included all required elements; and (3)
whether the selected schools implemented the elements included in their schoolwide plans.
Our work identified weaknesses in monitoring and oversight to ensure adherence to and
compliance with the statute.

	   Indiana: The Department allocated approximately $174 million in Title I funds to
    the Indiana Department of Education (IDE) for the 2005-2006 school year, where 160
    schools operated schoolwide programs. We found that IDE and the two LEAs we
    reviewed (Indianapolis and East Chicago) had adequate processes in place to ensure
    that schools implemented the elements included in their schoolwide plans, but did not
    ensure that schoolwide plans included all required elements. We also found that the two
    schools we reviewed did not include all required elements in their schoolwide plans. Not
    ensuring that schoolwide plans include all required elements could potentially lead to
    decreased implementation of required schoolwide plan elements and schoolwide plans
    that are less likely to improve the academic achievement of all students. We made a
    number of recommendations, including that the Department require IDE ensure that both
    schools revise their schoolwide plans to include all required elements. IDE concurred
    with our findings and recommendations.

	   Michigan: The Department allocated approximately $424 million in Title I funds to
    the Michigan Department of Education (MDE) for the 2005-06 school year, where 902
    schools in 250 LEAs operated schoolwide programs. Our audit found MDE and the
    four LEAs we reviewed generally had adequate processes in place to ensure that schools
    implemented the elements included in their schoolwide plans but did not ensure that
    schoolwide plans included all required elements. Similar to Indiana, we also found that
    the schools reviewed did not include all required elements in their schoolwide plans. Our
    recommendations for MDE mirrored those for IDE, including that the Department require
    MDE to ensure that all schools reviewed revise their schoolwide plans to include all
    required elements. We also recommended that the MDE provide guidance to all LEAs in
    Michigan on how to monitor schoolwide plans for inclusion and proper implementation
    of all required elements. MDE concurred with our findings and recommendations.
                                        11
Grantee Accountability
Bureau of Indian Affairs and the Individuals with Disabilities Education Act
The Department provides funding for disadvantaged and disabled students to the Bureau
of Indian Affairs (BIA) through the Department of the Interior (Interior). BIA is an agency
within Interior. The BIA allocates these funds to elementary and secondary schools operated
or funded by the Secretary of the Interior, including tribal-operated schools that are funded
by the BIA. Overall, the Department provided $140 million in education funds to BIA in
2002 and $188 million in 2003. The Individuals With Disabilities Education Act (IDEA),
Part B requires the Department to provide funds to the Secretary of the Interior to assist in
providing special education and related services to children with disabilities. The Office of
Indian Education Programs, located within the BIA, provides technical assistance to and has
oversight responsibility for 185 BIA-funded elementary and secondary schools, and two post-
secondary colleges.

During this reporting period, OIG concluded two audits in this area: one to determine
whether BIA schools administered IDEA, Part B funds in accordance with requirements,
laws, and regulations, and provided services to eligible children in accordance with the
student’s Individualized Education Program (IEP), and a second audit to determine whether
the Department’s oversight of Interior’s IDEA, Part B programs was adequate to disclose
potential problems. Our work identified a need for improved internal controls by both the
Department and BIA, specifically in the area of monitoring and oversight, as their previous
efforts have left millions of dollars at risk of waste, fraud, or abuse.

	   BIA Administration of IDEA, Part B: Our review covered the period July 1, 2001,
    through September 30, 2003. We selected seven BIA schools for review based upon the
    amount of IDEA, Part B funds received, student body population, and recommendations
    from officials at BIA. We found that the seven BIA schools reviewed did not administer
    IDEA, Part B funds in accordance with applicable requirements, laws, and regulations
    and were unable to demonstrate that 68 percent of the students in our sample received the
    planned special education and related services in accordance with their IEP. In addition,
    because the responsible agency within the BIA was unable to adequately account for
    the entire $111 million of IDEA, Part B funds appropriated during our audit period, we
    determined that other Department funds, totaling $217 million, also administered by
    Interior during the two-year audit period might be at risk.

	   Based on our findings, we made a number of recommendations, including that the
    Department obtain an assurance from BIA officials that the $111 million of IDEA, Part
    B funds was used to deliver educational assistance to the children with disabilities at all
    of the BIA funded schools and return any funds not used for those purposes. We also
    recommended that the Department coordinate with Interior to require BIA to account for
    the remaining $217 million in other Department funds it received during the audit period,
    or return those funds. The Department and BIA concurred with some of our findings and
    recommendations.




                                         12
                     Department of Education’s Oversight of Interior’s IDEA, Part B
                     Programs: We found that the Department did not provide adequate
                     oversight of BIA’s IDEA, Part B programs from September 2001 to
                     September 2003. While it provided some programmatic oversight of
                     BIA programs in the form of comments and feedback on the annual
                     performance reports submitted by BIA, Department officials did not
                     perform sufficient on-site visits to BIA schools or BIA offices. As a
                     result, the Department was unaware of the inadequate documentation
                     substantiating the special education and related services provided
                     by the schools to children with disabilities, or the lack of accounting
    procedures at BIA to account for IDEA, Part B funds. Consequently, the Department
    was unable to take timely corrective action.

	   Because BIA did not adequately account for the IDEA, Part B funds and it functioned
    as the SEA for all other Department programs, we determined that all education funds
    administered by Interior, totaling over $328 million during this specific audit period,
    might be at risk. Subsequently, the Department has worked with BIA to develop a
    corrective action plan to address a variety of issues at BIA. The corrective action plan
    contains steps to address programmatic and fiduciary compliance including, but not
    limited to, improving administrative, organizational, and management capability and
    program and financial accountability. In addition, the Department has imposed certain
    conditions on BIA’s continuing eligibility for IDEA, Part B funding. Based on our
    findings, we made a number of recommendations, including that the Department continue
    with the implementation of the current corrective action plan; but if BIA deviates from
    the plan, or fails to successfully complete the plan, the Department should evaluate
    whether to identify BIA as a high-risk entity. The Department concurred with several of
    our recommendations, and said it had taken steps to address a number of them.

Parental Information and Resource Center Grants
	   The Learning Exchange: In November, we released our final audit report that sought to
    determine whether The Learning Exchange’s (LX), a non-profit educational consulting
    agency, expenditures for its Parental Information and Resource Center (PIRC) project were
    allocable, allowable, reasonable, and in accordance with approved budgets, and grant terms
    and conditions. We reviewed LX from its inception in October 2003, through the February
    2006 termination of the grant’s authorization. The PIRC grant program provides resources
    that grantees can use to assist the parents of children who attend Title I schools identified for
    improvement, corrective action, or restructuring. Our audit revealed that LX did not properly
    contract for services, incorrectly allocated employee compensation payments, spent PIRC grant
    funds for unallowable activities, and did not retain sufficient documentation to support PIRC
    expenditures and demonstrate it met federal requirements. The total amount of questioned
    costs came to over $436,000. Based on our findings, we made a number of recommendations,
    including that, because of the pervasiveness of LX’s mismanagement of its PIRC grant, the
    Department consider initiating proceedings to debar LX from future participation in federal
    programs. LX disagreed with some of our findings, but generally justified its administrative
    failures by identifying extenuating circumstances and agreed to be debarred for a reasonable
    amount of time from federally funded contracts. It also committed itself to strengthening its
    internal control procedures.




                                           13
Congressional Earmark Recipients
	   KIPP Foundation: During this reporting period, we concluded an audit to determine whether
    the Knowledge Is Power Program (KIPP) Foundation conducted six Congressionally‑directed
    grants, totaling over $8 million, in accordance with applicable laws, federal regulations, and
    approved grant applications. KIPP is an educational program used to operate a nationwide
    network of free open-enrollment college-preparatory public schools in under-served
    communities. The KIPP Foundation (Foundation) is the national non-profit organization that
    supports the network. Our audit found that while the Foundation generally conducted the
    grants in accordance with the applicable law and approved grant applications, it did not fully
    comply with federal regulations when it included unallowable costs and costs lacking support
    documentation or budget approval in its charges to the grant accounts. The Department
    intended the funds awarded to the Foundation to be used to support the KIPP School
    Leadership Program, curriculum development, teacher training, and extended learning time at
    KIPP schools. While we did not identify any serious deficiencies that prevented the Foundation
    from achieving the grant goals, improvements to its control environment, specifically its
    financial management system, are needed to ensure that grant funds are used only for allowable
    and allocable costs. We made a number of recommendations with which KIPP concurred and
    agreed to implement our recommendations.

High-Risk Grantees
	   Virgin Islands: We conducted an audit to determine whether the Virgin Islands Department
    of Education (VIDE) ensured that Learning Point Associates (LPA) adequately met contract
    deliverables prior to payment by VIDE, and if it complied with applicable laws and regulations
    for the period of September 15, 2003, through September 30, 2005. VIDE entered into a
    $7.4 million fixed-price contract with LPA, a not-for-profit education consulting agency, in
    2003 to develop a comprehensive, territory-wide plan to: give schools greater site-based
    authority to determine needs and apply funding; enhance school site-based management
    through greater community involvement and accountability; implement individual school
    programs; bring VIDE into compliance with requirements for Department programs; and
    utilize quantitative data for decision-making at the school level. We found that VIDE did not
    ensure that LPA completed contract deliverables in accordance with the contract. Although
    LPA did complete the contract deliverables, VIDE did not have sufficient controls in place to
    ensure that the contract deliverables were completed timely, accurately, and prior to payment.
    Based on our findings, we made a number of recommendations geared towards helping VIDE
    improve its internal controls, including that the Department require VIDE to develop and
    implement adequate contract administration policies and procedures, and ensure that future
    contracts contain adequate controls and information reporting requirements. VIDE concurred
    with our findings and recommendations.

Investigations
Our investigations into suspected fraudulent activity by SEAs, LEAs, and other federal
education grantees have led to the arrest and conviction of a number of high-ranking state
and local education employees—individuals who were in positions of public trust—for theft
or misuse of federal education funds. We will continue to aggressively pursue those who
seek to defraud federal education programs at the expense of our nation’s students. Here are
a few examples of our work in this area over the last six months.




                                           14
	   Montana: A former education director of the Fort Peck Tribe, and her husband, the
    former Superintendent of Brockton Schools, were sentenced to prison terms, probation,
    and were ordered to pay restitution for charges related to theft of federal funds. They were
    each sentenced to 12 months incarceration, 3 years probation, and ordered to pay $12,000
    in restitution. The former education director was ordered to pay an additional $1,855 in
    restitution. Our investigation, conducted jointly with the Interior OIG, found that the former
    education director conspired with her husband and her uncle, a former Tribal Consultant, to
    submit and approve payment of false invoices for various consulting services that were never
    performed. Additionally, the former director falsified her daughter’s Free Application for
    Student Aid (FAFSA) by indicating she was a single mother with one income.

	   New York: A former Long Island Assistant Superintendent for Business of the William Floyd
    School District was sentenced for stealing approximately $675,000 in school and state pension
    funds over a six-year period. The former official received a combined two-to-six-year sentence
    on four counts of second-degree grand larceny, one count of third-degree grand larceny and
    two counts of money laundering. He was previously sentenced to 30 months incarceration on
    federal tax evasion charges for failing to report the stolen funds as income.

	   Pennsylvania: A former Philadelphia charter school principal and chief administrative officer
    at the Center for Economics and Law (CEL) was sentenced to 33 months incarceration for
    his role in a scheme to defraud the Philadelphia School District (PSD). The former official
    directed school employees to report students as enrolled who had dropped out of school, or
    who had transferred to out-of-state or private schools knowing that the PSD computer system
    could not readily track students once they left the district. As a result of the fraud, CEL was
    overpaid approximately $207,000. In addition to incarceration, the former principal was
    ordered to make full restitution, serve three years of supervised release, and is prohibited from
    holding any administrative position in an educational institution.




                                           15
                   Internal Controls and Accountability in
                   Student Financial Assistance Programs
              The Department’s student financial assistance programs are large and complex.
              The loan and grant programs rely on over 6,000 postsecondary institutions,
              more than 3,000 lenders, 35 guaranty agencies and many contractors. With
              $77 billion awarded last year through the student financial assistance programs
              and an outstanding loan portfolio of over $400 billion, the Department must
              ensure that all entities involved in the programs are adhering to statutory
              and regulatory requirements. As the office responsible for administering
              the student aid program, FSA must provide adequate oversight and demand
              accountability from its staff, partners, and participants to help protect these
              dollars from waste, fraud, and abuse.

               In SAR 53, we discussed two audits that identified significant lapses in
               management and accountability in the FFEL program: our audit on Financial
               Partners that revealed an unacceptable level of internal controls; and our
               audit of special allowance payments made to the student lender Nelnet, Inc.,
estimated that Nelnet was improperly paid more than $278 million in special allowance
payments, and could be improperly paid about $882 million for the ineligible loans after
June 2005, if its billings are not corrected. When dealing with a program of this size and
complexity, and particularly as the student loan programs were on the GAO High-Risk
List for more than a decade, effective internal controls are needed to provide reasonable
assurance that its programs—and the taxpayer dollars that support them—are protected from
waste, fraud, and abuse. Based on the findings of these two audits, we made a series of
recommendations to help FSA and the Department correct deficiencies and improve internal
controls. To date, FSA and the Department have taken only minimal steps to address our
recommendations. This limited progress is discussed below, as well as summaries of other
work we concluded in the student financial assistance arena over the last six months. In
addition, we closed a number of investigative cases of theft of student financial aid funds
by both those in positions of trust in schools, as well as by students themselves, which are
highlighted below.

Follow-up to Audit of Special Allowance Payments Made to Nelnet
In January, the Department announced a settlement with the student lender Nelnet on loans
billed at the 9.5 percent special allowance rate. As discussed in SAR 53, a 2006 OIG audit
estimated that Nelnet was improperly paid more than $278 million in special allowance
payments, and could be improperly paid an additional $882 million unless its billings are
corrected. The Department’s settlement prohibits any future special allowance payments
to Nelnet at the 9.5 percent floor rate on loans that were not made from eligible sources of
funds, which was one of our two recommendations. The Department did not, however,
require Nelnet to pay back any overpayments already received, which was the second
recommendation detailed in our September audit report.

Shortly after announcing the Nelnet settlement, the Department issued a “Dear Colleague”
letter to participants in the student lender program, restating which loans are eligible for the
9.5 percent special allowance payment, as set forth in the Higher Education Act, as amended
(HEA). The letter informed participants that the Department would require audits of all
pending claims from lenders seeking the 9.5 percent special allowance payment, and that


                                          16
                         the audits would be conducted by independent accounting firms. In
                         addition, the “Dear Colleague” letter stated that if a lender complies
                         with this provision of the law going forward, submits to an audit,
                         and agrees to certify future special allowance payment billings,
                         the Department would not require the lender to pay back any
                         overpayments it may have received. The Department’s decision has
                         come under the scrutiny of Congress and the media, as it is unclear
                         how much the Department may have overpaid these lenders. OIG
                         staff has been working with FSA and the Department on new audit
                         guidance for special allowance payments, which was issued in late
April, and continues to conduct work in this area to protect the integrity of the federal student
loan programs.

Audit Reports
Philander Smith College
During this reporting period, we concluded an audit to determine whether Philander Smith
College (PSC) complied with the Title IV program requirements for student eligibility,
verification, return of Title IV funds, and accounting for the Federal Perkins Loan program
(Perkins) and the William D. Ford Federal Direct Loan program (Direct Loans). We
determined that PSC often did not comply with the Title IV program requirements, and as a
result did not meet the administrative capability standards for Title IV programs. Based on
the significance of these findings, we concluded that the entire $11.4 million in Department
funds that PSC expended during the audit review period might be at risk for similar misuse.
Among our findings, we concluded that PSC: (1) did not account for or properly administer
the Perkins Loan Funds; (2) did not return unearned Title IV funds; (3) failed to monitor the
verification process and ensure that all required verifications were completed; (4) did not
properly disburse or reconcile Direct Loan Program funds; and (5) did not report student
status changes to the National Student Loan Data System.

Based on our findings, we made a number of recommendations, including that FSA require
PSC to: (1) reconcile the Perkins Loan and Direct Loan Programs; (2) return funds to the
Department for disbursements made to ineligible students; and (3) develop and implement
adequate policies, procedures, and management controls. PSC agreed with our findings but
did not agree with all of our recommendations.

FAFSA Verification
In 2006, OIG initiated a series of audits at nine Title IV participant schools to determine
if the schools completed verification of applicant data and accurately reported verification
results to the Department. As described in the Federal Student Aid Handbook 2005-2006,
“Application and Verification Guide,” when a school disburses a federal Pell Grant for a
student, the school is required to report the verification status of the student’s application
to the Department’s Common Origination and Disbursement (COD) system. The student
verification status remains blank when the school has not performed verification because
the application was not selected for verification. OIG reviewed nine schools: American
University of Puerto Rico (Puerto Rico); ATI Technical Center (Texas); Boston College
(Massachusetts); Cerritos Community College (California); East Carolina University (North
Carolina); Morton College (Illinois); the College of New Rochelle (New York); the School of
Art Institute of Chicago (Illinois); and Technical Career Institute (New York).



                                          17
Our work revealed that all of the schools except the American University of Puerto Rico had
policies and procedures in place that ensured FAFSA information was verified in accordance
with applicable HEA provisions, federal regulations, and Department guidance; however,
East Carolina University did not consistently adhere to the procedures. We found that
all schools properly performed verification by following written policies and procedures,
obtaining appropriate student-provided documentation, and accurately reporting changes in
application information, but only four of the schools accurately reported student verification
status to the COD. This is a critical step as it completes the process and lets the Department
know that the verification has been completed. Based on our findings, we recommended that
FSA require ATI Technical Center, Cerritos Community College, East Carolina University
Morton College, and the School of Art Institute of Chicago to confirm that they are properly
recording verification status in COD. For the American University of Puerto Rico, we
recommended that FSA require the school to develop written policies and procedures for the
verification process. The schools concurred with our findings and recommendations.

Investigations
Identifying and investigating fraud and abuse in the student financial assistance arena
has always been a top OIG priority. The following are summaries of some of the more
significant cases of student financial aid fraud that were closed over the last six months.

Fraud by Government Officials
A former North Carolina state representative was sentenced to 12 months probation and
a $1,000 fine for making false statements to the government by providing false, fictitious
documents to the Department in an attempt to convince Department officials that his student
loan debt had been paid in full. As a result of our investigation, the representative paid off
the remaining balance of his student loan obligations.

Fraud by School Officials
A former president and a former financial aid director of Morris Brown College were
sentenced to prison terms, probation, and ordered to pay restitution for student financial
aid fraud. The former officials fraudulently obtained student loans and grants from the
Department and private lenders for ineligible and withdrawn students, and in some instances
students that never attended the college. Our joint investigation with the FBI determined that
between August 1999 and January 2002, more than 1,800 disbursements of federally insured
loans and Pell grants were directed to the college on behalf of ineligible students.

A former men’s basketball coach/instructor at Barton County Community College was
sentenced to two years federal probation and ordered to pay over $26,000 in restitution
for student financial aid fraud and mail fraud. The former coach prepared and submitted
fraudulent time sheets representing that student athletes worked in the campus employment
program and Federal Work Study program. He also participated in a scheme involving
academic fraud by completing academic work on behalf of students/athletes enabling them
to receive an associate’s degree and to achieve eligibility to play basketball on a NCAA
Division I basketball team.




                                          18
                             A Cerritos College Assistant Football Coach, who was also
                             the Student Judicial Affairs Coordinator, was sentenced to
                             24 months incarceration for falsifying dependency override
                             documentation and residency certifications to obtain Title
                             IV aid for over 25 ineligible players. Further, he falsified
                             admission applications for out-of-state players so that they
                             would not have to pay the higher tuition fees. In addition to
                             incarceration, the former coach was sentenced to five years
                             probation, ordered to pay over $70,000 to the Department
                             and more than $20,000 to the Cerritos Community College,
                             terminate his employment at the College, and never hold a
position where he may have access to or control of public money.

Two school officials were sentenced to a combined 45 months of incarceration, six years of
supervised release, and ordered to pay approximately $795,000 in restitution after pleading
guilty to defrauding the Department and the U.S. Department of Health and Human Services.
Our investigation disclosed that the owner of the California School of Medical Sciences
(CSMS), authorized to receive federal financial aid, conspired with the General Manager of
the Software Training Center (STC) to provide financial aid applications from current STC
computer students in order to obtain federal funds for purported ultrasound courses at CSMS
that the students never attended. To promote the fraud, the officials manufactured and forged
student signatures on attendance records, course evaluation sheets and report cards showing
that the students had enrolled and completed an ultrasound course that they in fact never
attended.

Fraud by Students/Individuals
A former nursing student was sentenced to five years probation and ordered to pay over
$16,000 in restitution for student financial aid fraud for her role in a grade-buying scheme at
Southern University (SU). Our investigation disclosed that the nursing student allegedly paid
a former SU Associate Registrar to alter her official transcripts by removing failing grades
and/or adding passing grades for classes, some of which, she never attended. As a result, the
nursing student illegally received approximately $10,500 in FFEL loans and $6,650 in Pell
grants.
			
Identity Theft
A Boston man was sentenced to 18 months in prison and ordered to pay approximately
$139,000 in restitution, including over $18,000 to the Department after pleading guilty
to making false statements and Social Security fraud. The man fraudulently obtained
federal student loans by using another person’s identity, which allowed him to conceal his
prior student loan default status. The remainder of the restitution order is owed to U.S.
Department of Housing and Urban Development, and the Social Security Administration for
fraudulently obtaining benefits from those agencies.

A Minnesota woman was sentenced to 12 months incarceration, 5 years of supervised
release, and ordered to pay approximately $67,000 in restitution for financial aid fraud. Our
investigation revealed that from 1993 through 2005, the woman fraudulently obtained federal
and nonfederal student financial aid funds by enrolling in several academic institutions in the
Minneapolis area using the identity of both her minor child and her deceased grandmother.



                                         19
               Internal Controls and Accountability in
          Financial Management and Department Operations
Internal controls serve as the first line of defense in safeguarding assets and in preventing and
detecting fraud, abuse, and errors. Given the billions of dollars the Department distributes
each year, Department managers must give top priority to improving internal controls in
order to minimize the Department’s vulnerability to waste, fraud, and abuse. Since 2002, the
Department has made noteworthy progress by improving internal controls over its financial
management. This has enabled the Department to receive a clean audit opinion for the last
five years. While its improved financial management is helping the Department identify a
number of problem areas and possible misappropriations of federal funds, work conducted
during this reporting period shows continued inadequacies in its operations due to ineffective
internal controls.

Lack of effective internal controls, including monitoring and most notably control activities–
policies and procedures, techniques, and mechanisms that enforce management directives–
leave federal funds and agency assets vulnerable to waste, fraud, and abuse. Work concluded
during this report period shows a need for the Department to improve its physical control to
secure and safeguard vulnerable assets, specifically its IT equipment. It must also improve
its monitoring performance measures and indicators to ensure that its resources are used
efficiently, and that its contractors are meeting all requirements and delivering appropriate
services. By strengthening its internal controls in its internal operations, specifically its
control activities, the Department can truly and efficiently utilize the taxpayer dollars with
which it has been entrusted.

Financial Management
Financial Statement Audits
In November, we transmitted the final audit reports covering the Department’s and FSA’s
Fiscal Year (FY) 2006 comparative financial statements, and the Department’s FY2006
special-purpose financial statements. Ernst & Young, LLP, Certified Public Accountants
(E&Y), conducted the audits and we performed oversight and monitoring procedures
considered necessary to provide negative assurance that E&Y conducted the audits in
accordance with standards. The Department and FSA each earned an unqualified or “clean”
opinion on their respective comparative financial statements. The Reports on Internal
Control for both the Department and FSA noted reportable conditions covering credit
reform estimation and financial reporting processes, and controls surrounding information
systems. Neither audit noted instances of noncompliance, exclusive of the Federal
Financial Management Improvement Act of 1996 (FFMIA); however, they did note that
the Department’s and FSA’s financial management systems did not substantially comply
with certain systems requirements of the FFMIA due to the control weaknesses surrounding
information systems.

The audits found that the controls over credit reform estimation and financial reporting
could be strengthened by: improving the analytical tools used for the loan estimation
process; documenting, in detail, the programs written to develop the assumptions for the
loan estimating model and document scenarios under which deviation from patterns of prior
cash flows are appropriate; continuing to develop detailed operating procedures for the loan
estimation process, which would include the step-by-step procedures that take place during
the various phases of the process; and more fully implementing cohort reporting. The audits

                                          20
also found control weaknesses within information technology security and systems. These
included, among others, weaknesses in access controls, configuration management, security
incident handling procedures, and intrusion detection systems.

Additional Work
During this reporting period, we also transmitted the agreed-upon procedures report covering
the Department’s FY2006 Federal intragovernmental activity and balances. E&Y performed
the engagements, and we performed oversight and monitoring, as stated above. The purpose
of the intragovernmental activity and balances engagement was to perform certain agreed-
upon procedures stated in the U.S. Department of Treasury’s (Treasury) Financial Manual.
This report was provided to Treasury’s Financial Management Service and the GAO as
required.

Drug Control Funds
As required by Section 1704(d) of Title 21, U.S. Code, and in accordance with the Office
of National Drug Control Policy Circular Drug Control Accounting, we authenticated the
Department’s accounting of FY2006 drug control funds by expressing a conclusion on the
reliability of each assertion made in the Department’s accounting. Based upon our review,
nothing came to our attention that caused us to believe that the Department’s accounting and
assertions were not fairly stated in all material respects.

Department Operations
Department’s Competitive Sourcing/A-76 Competition
Competitive sourcing is a process that opens commercial activities performed by the
government to competition between the public and private sectors. The competitive sourcing
process is intended to improve the performance and efficiency of federal government
activities. Federal regulations require agencies to hold a competition to select the best service
provider for non-inherently governmental functions or commercial activities, which include
human resources services. In 2002, the Department developed the “One-ED” project, a
project intended to create a more efficient and effective organization. As part of One-ED, an
employee team studied human resources and training functions to determine the most cost
efficient way to deliver quality services. It ultimately decided that these functions could
benefit from competitive sourcing. In 2003, the Department held a standard competition for
the following human resources functions: staffing and hiring; employee relations; and training
and development, which were awarded to the Department’s Most Efficient Organization
(MEO). MEO refers to the government’s in-house organization, and may include a mix of
federal employees and contract support. The MEO defined how it would be organized and
managed, and proposed that it could perform the competed work for just over $38 million over
five years. Department officials selected the MEO as the service provider after they concluded
that it offered the best value solution compared to private sector proposals.

In 2006, we initiated an inspection to determine whether the MEO is meeting the
performance requirements, and if it is meeting the cost savings. We were unable to
determine if the MEO was meeting the performance requirements because it did not collect
any data on 11 of the 12 performance requirements, and there has been no evaluation of the
MEO’s performance. We also found that the Department-wide savings reported to OMB
were overstated by more than $5.1 million. Based on our findings, we recommended that
the Department reconsider how to best provide the competed human resources and training


                                          21
functions and determine whether the MEO should continue. The Department concurred with
our findings and recommendation, and has terminated the MEO.

Controls Over Excessive Cash Drawdowns By Grantees
Monitoring is not only one of the five standards for internal control, it is an integral part of
grant administration. Further, according to the Department’s Handbook for the Discretionary
Grant Process (Handbook), “well-designed monitoring must also address the [Department’s]
fiduciary responsibility to ensure grantees’ compliance with legal and fiscal requirements
and to protect against fraud, waste and abuse.” The Handbook directs the Department’s
program staff to pay particular attention to grantees’ fiscal activities as part of its monitoring
process by using the Grants Administration and Payment System (GAPS) as the primary
tool. GAPS provides payment and expenditure reporting data on Department grantees. One
of the available reports is the Excessive Drawdown Report, which assists program offices in
identifying those discretionary grantees that may have violated cash management policies
and regulations by drawing funds in excess of a grant’s immediate cash needs. Our audit to
determine whether the Department’s controls identify and prevent excessive cash drawdowns
by grantees found that the Department’s controls did not effectively identify or prevent
excessive cash drawdowns. As an example, we found that the Excessive Drawdown Reports
did not identify 1,379 unique grants that met the excessive drawdown threshold criteria
during FY2005. The net drawdown activity for these grants totaled $212 million. We also
found that staff did not always fulfill its responsibility to ensure program offices monitored
excessive drawdowns. As a result, the Department is not monitoring all grants for excessive
drawdowns, and cannot ensure its grantees are compliant with fiscal requirements. Based on
our findings, we made a number of recommendations aimed at correcting deficiencies in the
Excessive Drawdown Report and staff follow-up, the Department agreed with all but one.

	   Specific Recommendations for OPE and OII: In the course of our audit of excessive
    cash drawdowns by grantees, we determined that the Office of Innovation and
    Improvement (OII) and the Office of Postsecondary Education (OPE) had the largest
    number of potentially excessive drawdowns on the reports, with 236 and 189 drawdowns,
    respectively. Together, OII and OPE represented 425 of the 495 total drawdowns
    on the reports (86 percent). Prior to the release of our final report, we submitted a
    Management Information Report to each office providing immediate information that
    we believe may be beneficial in future oversight of excessive cash drawdowns made by
    OII and OPE grantees. In both instances, we found the offices did not always effectively
    respond to and resolve individual drawdowns on the Excessive Drawdown Reports. We
    recommended that the Department require both OII and OPE program staff ensure that all
    grants appearing on the Report are researched, excess cash balances are resolved, and the
    official grant file is documented accordingly.

Controls over Contract Monitoring for IES
During this reporting period, we concluded an audit to determine whether the Department’s
contract monitoring process ensures that contractors adhere to the requirements of the
contract, and if it receives the products and services intended. We focused our review on
the Institute of Education Sciences (IES), which was established by the Education Sciences
Reform Act as an office within the Department in 2002. During the time period of our
review, IES had the highest number of payments of any office within the Department, the
highest number of active contracts, and the second highest amount of payments during this
review period.


                                          22
Our audit revealed that the Department’s monitoring process for IES contracts did not always
ensure contractors adhered to the specified requirements or that the Department received
the products and services intended. Department staff did not adequately document receipt
and acceptance of deliverables; they did not prepare written evaluations of contractor-
submitted reports; nor did they appropriately review invoices prior to approving payment.
This occurred because Department staff were not always familiar with regulations, policies
and procedures, or with the terms of the contract they were assigned to monitor. All of the
issues noted were also reported in OIG’s previous audit of IES contract monitoring, which
led us to conclude that the corrective actions taken by the Department in response to our prior
audit were not always effective, and that further corrective actions are needed to improve
monitoring in these areas. We made a number of new recommendations, in response to which
the Department proposed corrective actions.

IT Equipment Inventory
The Federal Property and Administrative Services Act of 1949, as amended, requires that
each federal agency maintain adequate inventory controls and accountability systems for
property under its control. To assist in fulfilling this requirement, the Department conducts
an annual physical inventory of its IT equipment, such as computers, printers, and monitors.
The Department’s Office of Management (OM) is responsible for maintaining control over
the IT assets, and acquired the services of an inventory services contractor (ISC) to assist in
conducting the IT equipment inventory for FY2005. According to the contract, the ISC was
to collect and/or validate data on all applicable equipment, and provide computerized files to
the Department so it could update its inventory system to ensure its data is current, complete,
and accurate.

In November 2006, we concluded an audit to evaluate the process and results of this
inventory. Our audit found that the Department could not support the results reported in
the equipment inventory. The ISC reported 5,037 items as not found during the inventory
process, 2,259 being desktop/laptop computers or servers. These items were not necessarily
missing, as they may have been located in areas the contractor did not gain access to during
the inventory, such as alternate work sites, items on property passes, or perhaps represented
errors in bar code scanning. In its final report, the Department reported that 98.9 percent
of the total items in the inventory were accounted for; only 411 items were reported as
“unassigned” or not found. We attempted to validate the process for reconciling the 5,037
items initially not found by the ISC to the 411 items in the final results reported by the
Department, and found that the Department did not have any documentation to support
the final results. In addition, we found that the Department did not effectively manage its
inventory contracts. Specifically, it did not ensure that the inventory met stated goals, and
monitoring and documentation of contractor oversight was not adequate. As a result, the
Department lacks assurance that the inventory and reconciliation processes were conducted
appropriately and that inventory results were accurate. The Department concurred with our
findings, and proposed corrective actions to address each of our recommendations.




                                         23
               Investigations
               During this reporting period, significant settlements were reached with two
               Department vendors, as well as a former Department official. Below you will
               find summaries of these events.

                Former Deputy Secretary Enters Into Settlement Agreement: On March
                19, the U.S. Attorney’s Office for Washington, D.C., acting on behalf of
                the Department, entered into a settlement agreement with a former Deputy
                Secretary. Under the terms of the settlement, the former official admitted
                liability and agreed to pay $50,000, the maximum amount allowed under law,
                for continuing to hold bank stock that he was required to sell under conflict-
                of-interest rules. Our investigation found that the former official held over
                800 shares of Bank of America stock, a financial institution that participates in
                and benefits from the FFEL program. While he held this stock, he participated
                in policy matters that came before him in his official capacity at the
    Department that may have had a direct and predictable effect on Bank of America. The
    former official was informed by White House ethics officials that he would have to sell
    his bank stocks. The former official reluctantly agreed to sell his bank shares, and did
    sell other bank stock owned by his family; but he did not sell his more than 800 shares
    in Bank of America, despite repeated questions from ethics officials at the Department,
    and despite being informed by a financial advisor that his Bank of America shares had
    not been sold at the time his family’s other bank shares had been sold. Through this
    settlement, the former official admitted his liability by virtue of his failure to divest his
    Bank of America shares as required. 

	   $90,000 Settlement With Armstrong Williams: In October, Armstrong Williams
    agreed to pay $90,000 to settle allegations that his media relations company, the Graham
    Williams Group (GWG), submitted false claims to the Department under his contract
    to provide media services for the NCLB. This civil settlement is the result of joint
    inspection/investigation conducted by the OIG’s Special Investigation Unit and the
    Operations Internal Audit Team in 2005.

	   $255,000 Settlement With Avaya Communications: In October 2006, a $255,000
    settlement was reached with Avaya Communications concerning its responsibility for the
    acts of one of its former employees who was a participant in a wide-ranging conspiracy to
    defraud the Department. The settlement is a result of the contention that Avaya is liable
    for its former employee’s participation in a scheme through which the Department was
    defrauded of more than $1 million. A previous settlement in this matter with the prime
    contractor, Verizon Federal, Inc., for $2 million dollars was reached in 2002.




                                          24
                              Hurricane-Related Efforts
The Hurricane Education Recovery Act (HERA), passed as part of Public Law 109-148 in
2005, authorized three new grant programs to assist school districts and schools in meeting the
educational needs of students displaced by Hurricanes Katrina and Rita, and to help schools
closed as a result of the hurricanes to re-open as quickly and effectively as possible. These
programs are: (1) the Immediate Aid to Restart School Operations program (Restart), funded at
$750 million; (2) the Assistance for Homeless Youth (HY) program, funded at $5 million; and
(3) the Temporary Emergency Impact Aid for Displaced Students (EIA) program, funded at $645
million. In addition, Public Law 109-148 included $200 million for students and institutions of
postsecondary education affected by the hurricanes. In June 2006, Congress appropriated an
additional $235 million for the Emergency Impact Aid programs, and an additional $50 million
for postsecondary institutions and students in the Emergency Supplemental Appropriations
Act for Defense, the Global War on Terror, and Hurricane Recovery Act 2006. At the close of
reporting period, Congress was considering adding another $30 million for these programs for
FY2007.

With such a large amount of funding needing to be distributed in critical areas in a short amount
of time, effective internal controls, particularly risk assessment, is vital. That’s why in 2005, prior
to the disbursement of its hurricane-related funds, OIG worked closely with the Department,
providing assistance and advice in matters relating to internal controls over HERA-related
funding. This allowed OIG an opportunity to alert the Department to potential areas of risk or
concern before the first HERA dollars were released, and provided the Department an opportunity
to implement safeguards to help prevent waste, fraud, and abuse of these funds. Our emphasis
was on appropriate monitoring, as well as accurate and reliable recordkeeping and reporting by
grant recipients. We also advised the Department on issue areas identified by our regional audit
teams, all in an effort to help ensure these vital dollars reach the intended recipients.

During this reporting period, OIG completed one audit, with eight additional efforts near
completion. An additional audit is scheduled to begin later in FY2007. Pursuant to our policy
to keep confidential the details of our ongoing work, below you will find a summary of our
completed audit. When the other audits are finalized, we will report our findings to the U.S.
Congress, the Department, and the general public.

Controls Over Hurricane Education Recovery Funding
In January 2007, we issued a Management Information Report to provide the Department with
information that may be beneficial in ensuring HERA funds are appropriately expended. The
information was gleaned from an audit we conducted to assess the adequacy of controls over
funding for Restart, HY, and EIA. Our work noted that the Department had issued guidance
and information consistent with legislative requirements, allocated funding using methodologies
that were appropriate and reasonable, and developed and initiated implementation of monitoring
plans. We did, however, find that the Department did not obtain supporting data to provide
assurance of the accuracy of displaced student counts, which is used as the basis for allocation
of funds under both the EIA and HY programs prior to the allocation of funds. Instead, the
Department relied upon information and certifications provided by the SEAs, which the SEAs
received from the LEAs, BIA-funded schools, and nonpublic schools. The Department also
took steps to verify student counts during its EIA monitoring visits. Based on our findings, we
suggested that the Department continue to obtain supporting information for displaced student
counts during monitoring visits to help ensure that funds allocated for the EIA and HY programs
were appropriate, and incorporate single audit reviews as they become available into the
monitoring plan for each program.
                                            25
                               Other Noteworthy Efforts
Nonfederal Audits
Participants in Department programs are required to submit annual audits performed by independent
public accountants (IPAs). We perform quality control reviews (QCRs) of these audits to assess
their quality. We completed 41 QCRs of audits conducted by 40 different IPAs, or offices of firms
with multiple offices. We concluded that 19 (46 percent) were acceptable, 16 (39 percent) were
technically deficient, and 6 (15 percent) were substandard.

President’s Council on Integrity and Efficiency
PCIE Audit Committee
Inspector General Higgins continues to chair the Audit Committee of the President’s Council on
Integrity and Efficiency (PCIE). Highlights from this reporting period include:

	   GAO/PCIE Financial Audit Manual Update: GAO and the Federal Audit Executive Council
    (FAEC) are working to update the GAO/PCIE Financial Audit Manual for recent changes to the
    auditing standards. First drafts of a number of manual chapters have been issued for comment
    with additional sections to follow shortly. The GAO/FAEC team hopes to issue the final
    document by the end of June 2007.

	   GAO/PCIE Financial Statement Audit Roundtable: In February 2007, the PCIE and
    GAO hosted the annual Financial Statement Audit Roundtable. Speakers discussed a wide
    range of issues affecting financial statement audits before a group of participants that included
    representatives from the PCIE, GAO, the OMB, the Chief Financial Officers’ Council (CFOC),
    the Federal Accounting Standards Advisory Board and independent public accountants.

	   Joint CFOC/PCIE Working Group: In order to maximize the effectiveness and efficiency of
    the financial statement audits that each IG office is required to perform on its agency annually,
    the PCIE and the CFOC established a working group in January. The Working Group, chaired
    by OMB and composed primarily of Deputy CFOs and Assistant IGs for Audit, looks to address
    issues that arose during the FY2006 financial statement audit process, identify common problems
    and develop best practices. In March, the Working Group began its efforts to produce the best
    practices report, entitled, Best Practice Guide: Coordinating the Preparation and Audit of Federal
    Financial Statements. The Working Group is currently soliciting ideas and comments from the
    financial community, and looks to release its final report later this year.

New DVD on ID Theft
In January, OIG released its second DVD on the issue of identity theft in the student financial
assistance arena. Entitled Identity Theft: It’s Not Worth It, the DVD tracks how OIG
Investigative Services, together with the U.S. Attorney’s Office, U.S. Marshals Service, U.S
Postal Inspection Service, and Truckee Meadows Community College, worked together
to stop a $1 million financial aid fraud scam, spearheaded by a 64-year old grandmother.
The DVD discusses how the woman—along with seven of her family members, including
children and grandchildren—used the identities of more than 65 people to obtain almost $1
million in federal student aid at various colleges in Arizona, Colorado, Maryland, Nevada,
and Texas through distance education programs. In 2003, OIG worked with the Arizona
Department of Public Safety to produce FSA Identity Theft: We Need Your Help. This report
featured an individual incarcerated for student aid fraud who describes the techniques he used
to steal identities. To date, OIG has distributed nearly 100 DVDs to schools, lenders, and
other participants in the student financial assistance programs.

                                            26
Reporting Requirements of the Inspector General Act, As Amended

  Section                                 Requirement                                 Table Number
5(a)(1) and              Significant Problems, Abuses, and Deficiencies
  5 (a)(2)                       Activities and Accomplishments
  5(a)(3)                     Uncompleted Corrective Actions
                     Recommendations Described in Previous SARs on which                   1
                           Corrective Action Has Not Been Taken
  5(a)(4)                Matters Referred to Prosecutive Authorities
                                      Statistical Profile                                  7
5(a)(5) and                Summary of Instances where Information
  6(b)(2)                      was Refused or Not Provided
  5(a)(6)                              Listing of Reports
                OIG Audit Services Reports on Department Programs and Activities           2
                   Other OIG Reports on Department Programs and Activities                 3
  5(a)(7)                       Summary of Significant Audits
                                Activities and Accomplishments
  5(a)(8)                 Audit Reports Containing Questioned Costs
                         OIG Issued Audit Reports with Questioned Costs                    4
  5(a)(9)               Audit Reports Containing Recommendations for
                                       Better Use of Funds                                 5
              OIG Issued Audit Reports with Recommendations for Better Use of Funds
 5(a)(10)          Summary of Unresolved Audit Reports Issued Prior to the
                               Beginning of the Reporting Period
                        Unresolved Reports Issued Prior to October 1, 2006                 6
 5(a)(11)                 Significant Revised Management Decisions

 5(a)(12)                    Significant Management Decisions with
                                      which OIG Disagreed
 5(a)(13)       Unmet Intermediate Target Dates Established by the Department
                Under the Federal Financial Management Improvement Act of 1996




                                                  27
 Table 1: Recommendations Described in Previous SARs on Which Corrective Action
 Has Not Been Completed
 Section 5(a)(3) of the IG Act as amended requires a listing of each report resolved before the commencement of the
 reporting period for which management has not completed corrective action. The reports listed below are OIG internal
 and nationwide audit reports.
   Report              Report Title            Date          Date          Total           Number of          Latest
  Number        (Prior SAR Number and         Issued       Resolved Monetary Recommendations                  Target
                          Page)                                          Findings      Open       Closed       Date
                                                                                                         (Per Corrective Action
                                                                                                                 Plan)

 NEW AUDITS SINCE LAST REPORTING PERIOD

FSA
 A04E0006    Death and Total and       11/14/2005 2/24/2006                           2         2          9/30/2007
             Permanent Disability
             Discharges of FFEL and
             Direct Loan Program Loans
             (SAR 52, pg 27)
 A11F0004    Security Review of the    9/29/2005 11/21/2005                           1         10         8/15/2007
             Virtual Data Center –
             Fiscal Year 2005 (SAR 51,
             pg 26)
Office of the Chief Financial Officer (OCFO)
 A17F0004    Financial Statement Audits 11/15/2005 1/12/2006                          1         4          3/30/2007
             Fiscal Years 2005 and 2004
             U.S. Department of
             Education (SAR 52, pg 28)
Office of the Chief Information Officer (OCIO)
 A19F0009    Telecommunications            2/1/2006     3/22/2006                     7         0          9/30/2008
             Billing Accuracy (SAR 52,
             pg 28)
Office of Planning, Evaluation & Policy Development (OPEPD)
 A11E0003    Audit of the Department’s     9/29/2005    3/28/2006                     0         14                *
             Performance Based Data
             Management Initiative
             (SAR 51, pg 28)
AUDITS REPORTED IN PREVIOUS SARs
Office of the Deputy Secretary (ODS)
 A09E0014    Departmental Actions to    10/26/2004 1/10/2005                          3         3         3/30/2007
             Ensure Charter Schools’
             Access to Title I and IDEA
             Part B Funds (SAR 50, pg
             22) (Office of Elementary
             and Secondary Education
             (OESE) and the Office of
             Special Education and
             Rehabilitative Services
             (OSERS) also designated as
             action official)

                                                          28
  Report             Report Title                Date         Date           Total           Number of                 Latest
  Number       (Prior SAR Number and            Issued      Resolved        Monetary      Recommendations              Target
                        Page)                                               Findings      Open         Closed           Date
                                                                                                                  (Per Corrective Action
                                                                                                                          Plan)

OCFO
A19D0007     Audit of the Department of        3/31/2005    8/8/2005                            6        4        11/30/2007
             Education’s Followup
             Process for External Audits
             (SAR 50, pg 22)
Office of Management (OM)
A19D0008     Audit of the Department’s         3/30/2005    5/13/2005       $14,366             0        16                *
             Management of the Federal
             Employees’ Compensation
             Act Program (SAR 50, pg
             23)

   * Closure of audits was not completed in AARTS by the end of reporting period (3/31/2007).


 Table 2: OIG Audit Reports on Department Programs and Activities
 (October 1, 2006, through March 31, 2007)
 Section 5(a)(6) of the IG Act as amended requires a listing of each report completed by OIG during the reporting
 period.
 Report                         Report Title                       Date         Questioned          Unsupported       No. of
 Number                                                            Issued        Costs *               Costs         Recomm-
                                                                                                                     endations
 AUDIT REPORTS
 FSA
 A06F0018       Philander Smith College’s Administration        11/2/06         $476,167                                  20
                of Title IV Student Financial Assistance
                Programs Needs Improvement
 A09G0023       Cerritos Community College’s                    3/26/07                                                    1
                Verification of Applicant Information
                Submitted on the Free Application for
                Federal Student Aid
 A09G0026       Morton College’s Verification of                3/26/07                                                    2
                Applicant Information Submitted on the
                Free Application for Federal Student Aid
 A09G0027       School of the Art Institute of Chicago’s        3/26/07                                                      2
                Verification of Applicant Information
                Submitted on the Free Application for
                Federal Student Aid
 A09G0028       Boston College’s Verification of                1/17/07                                                 None
                Applicant Information Submitted on the
                Free Application for Federal Student Aid
 A09G0029       ATI Technical Training Center’s                 3/26/07                                                    3
                Verification of Applicant Information
                Submitted on the Free Application for
                Federal Student Aid

                                                              29
                                                                                                 No. of
 Report                   Report Title                        Date    Questioned   Unsupported   Recomm-
 Number                                                      Issued    Costs*         Costs      endations

A09G0030   Technical Career Institutes’ Verification     1/17/07                                   None
           of Applicant Information Submitted on
           the Free Application for Federal Student
           Aid
A09G0031   The College of New Rochelle’s                 1/17/07                                   None
           Verification of Applicant Information
           Submitted on the Free Application for
           Federal Student Aid
A09G0032   American University of Puerto Rico’s          3/26/07                                     1
           Verification of Applicant Information
           Submitted on the Free Application for
           Federal Student Aid
A09G0033   East Carolina University’s Verification of    3/26/07       $1,464                        6
           Applicant Information Submitted on the
           Free Application for Federal Student Aid
A17G0004   Financial Statement Audits                    11/15/06                                    5
           Fiscal Years 2006 and 2005
           Federal Student Aid
           (OCFO also designated as an action
           official)
OCFO
A07G0013   Parental Information and Resource Center      11/16/06     $436,664                       7
           Grant at The Learning Exchange
           (Office of Innovation and Improvement
           (OII) also designated as an action
           official)
A09G0010   KIPP Foundation’s Administration of the       12/6/06       $4,391                        6
           Fund for the Improvement of Education
           Grants (OII also designated as an action
           official)
A17G0003   Financial Statement Audits Fiscal Years       11/15/06                                    5
           2006 and 2005 U.S. Department of
           Education (FSA also designated as an
           action official)

A17G0005   Financial Statement Audits for Fiscal         11/17/06                                  None
           Years 2006 and 2005 U.S. Department of
           Education Special Purpose Financial
           Statements
A19F0025   Controls Over Excessive Cash                  12/18/06                                    9
           Drawdowns By Grantees

A19G0004   Controls Over Contract Monitoring for         12/14/06                                    6
           Institute of Education Sciences Contracts
            (IES also designated as an action
           official)


                                                        30
 Report
 Number                  Report Title                      Date                                   No. of
                                                                     Questioned    Unsupported   Recomm-
                                                          Issued      Costs*          Costs      endations
OESE
A02F0023   Virgin Islands Department of Education         1/30/07                                   2
           Administration of the Learning Point
           Associates Contract
A02G0002   Audit of New York State Education              11/3/06   $118,340,582   $97,491,672      8
           Department’s Reading First Program
A02G0009   Mid-Hudson Migrant Education Outreach          1/31/07                                 None
           Program

A03F0022   RMC Research Corporation’s                     3/7/07                                    3
           Administration of the Reading First
           Program Contracts (OCFO also
           designated as an action official)
A03G0006   The Department’s Administration of             2/22/07                                   3
           Selected Aspects of the Reading First
           Program (OCFO also designated as an
           action official)
A04G0003   Review of the Georgia Reading First            1/18/07                                   1
           Program

A05G0011   Wisconsin Department of Public             10/20/06                     $5,844,522       2
           Instruction’s Reading First Program

A05G0015   Ohio Department of Education’s Title I,    11/13/06                      $315,012        6
           Part A, Comparability of Services
           Requirement
A05G0018   Michigan Schools’ Implementation of            11/6/06                                   3
           Schoolwide Plans Under the NCLB

A05G0034   Indiana Schools’ Implementation of             3/15/07                                   5
           Schoolwide Plans Under the NCLB

A06G0008   Data Quality Review of the Oklahoma        10/23/06                                      5
           Consolidated State Performance Report

A09F0024   California Department of Education’s           12/1/06       **                          6
           Migrant Education Program

A09G0009   Data Quality Review of Washington          11/14/06                                      7
           Consolidated State Performance Reports

A09G0020   Arizona Department of Education’s              3/26/07                  $10,185,915      11
           Oversight of the ESEA, Title I, Part A
           Comparability of Services Requirement




                                                     31
                                                                                                      No. of
 Report                    Report Title                        Date      Questioned    Unsupported   Recomm-
 Number                                                       Issued      Costs*          Costs      endations

OM
A19G0007    Audit of the Department of Education          11/29/06                                      8
            FY2005 IT Equipment Inventory
            (OCFO also designated as an action
            official)
OSERS
A06F0019    Results of five audits of the IDEA, Part B        3/28/07   $328,000,000                    6
            requirements at schools under the
            supervision of the U.S. Department of
            Interior’s Bureau of Indian Affairs
            (Report was addressed to the Bureau of
            Indian Education, Department of the
            Interior)
A06G0002    Results of our audit of the IDEA, Part B          3/30/07                                   4
            requirements at schools under the
            supervision of the Department of
            Interior’s Bureau of Indian Affairs
            (Report was addressed to the Deputy
            Secretary of Education, also designated
            as an action official)

ALTERNATIVE PRODUCTS
OCFO
B17G0006    Federal Intragovernmental Activity and        12/19/06                                     ***
            Balances Agreed-Upon Procedures
            Report (Attestation Report)
X17H0002    Final Management Letter                       12/15/06                                     ***
            Fiscal Years 2006 and 2005 Financial
            Statement Audits U.S. Department of
            Education and Federal Student Aid
            (Management Information Report
            - OCIO and FSA also designated as
            action officials)
OCIO
A19-H0003   Closure of Audit to Determine the             3/22/07                                     None
            Accuracy of Amounts Billed to the U.S.
            Department of Education Under the
            Education Network Contract (GS-35F-
            4381G) by Computer Sciences
            Corporation (Audit Closeout Letter)
OESE
X19G0003    Controls over Hurricane Education                 1/31/07                                  ***
            Recovery Funding (Management
            Information Report - State and Local No.
            07-03)


                                                         32
     Report                        Report Title                         Date                                                No. of
                                                                                     Questioned         Unsupported
     Number                                                            Issued                                              Recomm-
                                                                                      Costs*               Costs           endations
 OII
 X19F0025         Controls Over Excessive Cash Draws by              10/16/06                                                 ***
                  Grantees
                  (Management Information Report
                  - State and Local No. 07-01)
 Office of Postsecondary Education (OPE)
 X19G0010         Controls Over Excessive Cash                       11/15/06                                                 ***
                  Drawdowns by Grantees
                  (Management Information Report - State
                  and Local No. 07-02)

 OPEPD
 B17H0001         Office of Inspector General’s Independent            1/29/07                                               None
                  Report on the U.S. Department of
                  Education’s Detailed Accounting of
                  Fiscal Year 2006 Drug Control Funds,
                  dated January 24, 2007
                  (Attestation Report)

 *     For purposes of this schedule, questioned costs may include other recommended recoveries. Please see footnote 3 under
       Table 4 for additional information regarding questioned and unsupported costs.
**    We identified significant numbers of ineligible children in this report, but did not project estimated questioned costs. We
      recommended that more thorough reviews be conducted to determine the total numbers of ineligible children and the return
      of funds expended for the ineligible children found.
*** Attestation Report B17G0006 made 2 suggestions that are not tracked for audit resolution purposes.
    Management Information Report X17H0002 made 53 recommendations - 4 to the Department, 47 to FSA, and 2
    to both. (Management information reports usually make “suggestions” instead of recommendations that are not
    tracked for audit resolution purposes.)
    Management Information Report X19F0025 made 2 suggestions that are not tracked for audit resolution purposes.
    Management Information Report X19G0010 made 3 suggestions that are not tracked for audit resolution purposes.
    Management Information Report X19G0003 made 4 suggestions that are not tracked for audit resolution purposes.


 DESCRIPTION OF ALTERNATIVE PRODUCTS
 Attestation reports convey the results of attestation engagements performed within the context of their stated scope and
 objective(s). Attestation engagements can cover a broad range of financial and non-financial subjects and can be part of a
 financial audit or performance audit. They include the examination, review, or performance of agreed-upon procedures on a
 subject matter, or an assertion about a subject matter and reporting on the results.
 Audit closeout memoranda/letters are issued to provide written notification to auditees of audit closure when the decision is made
 to close an assignment without issuing an audit report.
 Interim audit memoranda are used to notify Department management or the audited entity of a serious and urgent condition or
 issue identified during an on-going audit assignment when there is a strong likelihood that waiting until the audit report’s issuance
 would result in the loss of an opportunity to prevent or curtail significant harm to the Department’s interest. One interim audit
 memorandum was issued during the SAR 54 period. It is OIG policy to include interim audit memoranda in our product count but
 not individually identify them in SAR Table 2, nor post them on the OIG Internet/Intranet website due to their pre-decisional and
 interim nature.
 Management information reports provide Department management with information derived from audits (when the issuance of an
 audit report is not appropriate) or special projects that may be useful in its program administration or conduct of program
 activities.
                                                                  33
 Table 3: Other OIG Reports on Department Programs and Activities
 (October 1, 2006, through March 31, 2007)
 Section 5(a)(6) of the IG Act, as amended requires a listing of each report completed by OIG during the reporting period.
     Report                                                 Report Title                                                      Date
     Number                                                                                                                  Issued
 FSA
 L02G0019         Relocation of Irma Valentín-Utuado to Mayagüez                                                             3/12/07
                  (Alert Memorandum Student Financial Assistance No. 07-01)
 OCIO
 L19G0009         Conflicting Responsibilities Included in the EDNet Contract Performance Work                               2/16/07
                  Statement
                  (Alert Memorandum Operations Internal Audit No. 06-03 – OS and OCFO also
                  designated as action officials)
 OESE
 S09G0007          An OIG Perspective on the Supplemental Educational Services Provisions of the                            11/28/06
                   Elementary and Secondary Education Act
                   (Special Project)
 OM
 I13-G0004        Review of the Department’s Competitive Sourcing/A-76 Competition                                           2/28/07
                  (Inspection Report – OCFO also designated as action official)
 DESCRIPTION OF TABLE 3 PRODUCTS

 Alert memoranda are prepared when a serious condition requiring immediate Department management action that is either outside the
 agreed-upon objectives of an on-going audit or inspection assignment, or is identified while engaged in work not related to an on-
 going assignment when an audit or inspection report will not be issued. Alert memoranda are not on the OIG website and are not
 publicly distributed.

 Inspections are analyses, evaluations, reviews or studies of the Department’s programs. The purpose of an inspection is to provide
 Department decision makers with factual and analytical information, which may include an assessment of the efficiency and
 effectiveness of their operations, and vulnerabilities created by their existing policies or procedures. They are performed in
 accordance with the 2005 President’s Council on Integrity and Efficiency Quality Standards for Inspections appropriate to the scope
 of the inspection.

 Special projects are work that result in the issuance of a product or report that is not conducted in full compliance with the audit,
 inspection, or investigation standards.



Table 4: OIG Issued Audit Reports with Questioned Costs1
Section 5(a)(8) of the IG Act as amended requires for each reporting period a statistical table showing the total number of
          audit reports, the total dollar value of questioned and unsupported costs, and responding management decision.
                                                                                          Questioned2        Unsupported 3
                                                                           Number            Costs                Costs
A. For which no management decision has been made before the                  56        $454,870,0254         134,184,8604
      commencement of the reporting period (as adjusted)
B.    Which were issued during the reporting period                                     9          $561,096,389           $113,837,121

           Subtotals (A + B)                                                           65         $1,015,966,414           $248,021,981
C.    For which a management decision was made during the period                       23           $36,967,841            $27,055,127


                                                                     34
                                                                                                                        Unsupported
                                                                                 Number       Questioned Costs*            Costs
         (i) Dollar value of disallowed costs                                                   $36,967,841             $27,055,127

         (ii) Dollar value of costs not disallowed                                                           $0                       $0

D.       For which no management decision was made by the end of the                 42           $978,998,573          $220,966,854
         reporting period
E.       For which no management decision was made within six months                 33           $417,902,184         $107,129,733
         of issuance
1
    None of the audits reported in this table were performed by the Defense Contract Audit Agency
2
  Questioned costs are costs that are questioned because of either an alleged violation of a provision of a law, regulation, contract,
grant, cooperative agreement, or other agreement or document governing the expenditure of funds or a finding that, at the time of the
audit, such cost is not supported by adequate documentation or a finding that the expenditure of funds for the intended purpose is
unnecessary or unreasonable. Other recommended recoveries are funds recommended for reasons other than questioned costs. Since
the IG Act does not provide for this type of monetary finding, other recommended recoveries are combined with the “questioned
costs” category for reporting in the SAR. The category is usually used for findings involving recovery of outstanding funds and/or
revenue earned on Federal funds. The amount also includes any interest due the Department resulting from auditees’ use of funds. In
addition, amounts reported for this category are combined with unsupported costs for reporting in the SAR.
3
  Unsupported costs are costs that are questioned because, at the time of the audit, such costs were not supported by adequate
documentation.
4
 SAR 48 had recognized questioned costs of $37,452 for audit report A05-D0029 issued 10/31/03. When the Department resolved the
audit during the SAR 54 period, it reallocated the $37,452 as $13,331 questioned costs and $24,121 unsupported costs. Therefore, we
have adjusted these figures accordingly.

    Table 5: OIG Issued Audit Reports with Recommendations for Better Use of Funds*
    Section 5(a)(9) of the IG Act as amended requires for each reporting period a statistical table showing the total number
    of audit reports and the total dollar value of recommendations that funds be put to better use by management.
                                                                                    Number               Dollar Value
    A.      For which no management decision has been made before the                         5                   $1,123,048,776
            commencement of the reporting period (as adjusted)

    B.      Which were issued during the reporting period                                    0                               $0

                Subtotals (A + B)                                                             5                   $1,123,048,776

    C.      For which a management decision was made during the reporting
            period
              (i) Dollar value of recommendations that were agreed to by                      2                   $230,721,199
              management
              (ii) Dollar value of recommendations that were not agreed to by                 0                                  $0
              management
    D.      For which no management decision has been made by the end of                     3                    $892,327,577
            the reporting period
    E.      For which no management decision was made within six months                      3                    $892,327,577
            of issuance
    * None of the audits reported in this table were performed by the Defense Contract Audit Agency.




                                                                   35
Table 6: Unresolved Reports Issued Prior to October 1, 2006
____________________________________________________________________________
Section 5(a)(10) of the IG Act as amended requires a listing of each report issued before the commencement of the
reporting period for which no management decisions had been made by the end of the reporting period. (Status below
represents comments provided by the Department, comments agreed to, or documents obtained from the Department’s
tracking system, AARTS.)
     Report                             Report Title                         Date      Total Monetary      No. of
    Number                     (Prior SAR Number and Page)                  Issued        Findings      Recommen-
                                                                                                          dations
New Since Last Reporting Period
FSA
A04E0009         Review of Financial Partners’ Monitoring and               9/29/06                           17
                 Oversight of Guaranty Agencies, Lenders, and
                 Servicers (OPE also designated as action official)
                 (SAR 53, pg 24)
                 Status: FSA informed us that it does not concur with
                 the recommendation, as explained in writing to the IG
                 from the COO.
A07F0017         Special Allowance Payments to Nelnet for Loans             9/29/06     $278,000,000           2
                 Funded by Tax-Exempt Obligations (see note 1) (SAR
                 53, pg 24)
                 Status: FSA informed us that based on the settlement
                 agreement between the Department and Nelnet, this
                 audit should be considered closed. Audit will be
                 removed from the overdue listing after all actions are
                 completed in AARTS.
OCIO
A11G0002         System Security Review of the Education Data Center        9/28/06                           14
                 FY2006 (SAR 53, pg 25)
                 Status: OCIO informed us that resolution is pending,
                 OIG concurrence with Finding 1, Rec 3.
OESE
A02F0005         New Haven School District’s Administration of Title I,     4/11/06       $3,780,000          4
                 Part A Summer and After School Programs (SAR 53,
                 pg 25)
                 Status: OESE informed us that the audit is pending
                 resolution. Program reviewing voluminous workpapers
                 and rebuttals submitted by Connecticut.
A02F0017         Puerto Rico Department of Education, Salinas School
                 District’s Administration of Title I Funds (SAR 53, pg     7/25/06         $20,071           5
                 25)
                 Status: OESE informed us that the Risk Management
                 Team (RMT) is resolving the audit.




                                                          36
Report Number                        Report Title                         Date Issued     Total        No. of
                            (Prior SAR Number and Page)                                 Monetary     Recommen-
                                                                                        Findings       dations
A05F0018        The School District of the City of Detroit’s               6/22/06      $930,448         8
                Administration of Parental Involvement Funds Under
                the NCLB (SAR 53, pg 25)
                Status: OESE informed us that the program
                determination letter was signed and dated on March
                31, 2007. Audit will be removed from the overdue
                listing after all actions are completed in AARTS.
A06F0016        Arkansas Department of Education’s Migrant                 8/22/06      $877,000        2
                Education Program (SAR 53, pg 25)
                Status: OESE informed us that the audit is on
                administrative stay 5/22/07. AARTS data: does not
                show that the audit is on administrative stay.
                Anticipated resolution date is 5/22/2007.
A06F0021        Data Quality Review of the South Dakota Consolidated        6/7/06                      2
                State Performance Report (SAR 53, pg 25)
                Status: OESE informed us that the audit is a pending
                discussion with OIG.
Reported in Previous SARs
FSA
A02E0003        The University of the Virgin Islands’ Administration of     4/8/05      $102,077         25
                Title IV Student Financial Assistance Programs Needs
                Improvement (SAR 51, pg 25)
                Status: PDL was issued on 9/25/2006. Audit will be
                removed from the overdue listing after all actions are
                completed in AARTS.
A03F0001        School Eligibility Channel’s Initial Review and Quality    9/20/05
                Control Review Process for Electronic Submissions of
                Institutions’ Financial Statements Through the
                Department’s eZ-Audit System (SAR 51, pg 25)
                Status: No status change. FSA informed us that OIG
                and FSA are negotiating over one corrective action on
                which OIG has non-concurred.
A04B0015        Review of Cash Management and Student Financial            9/26/02      $997,313        7
                Assistance Refund Procedures at Bennett College
                (OPE designated as collateral action office for this
                report) (SAR 45, pg 16)
                Status: FSA informed us it is currently working on
                this audit.
A04B0019        Advanced Career Training Institute’s Administration of     9/25/03      $7,472,583      14
                the Title IV HEA Programs (SAR 47, pg 13)
                Status: FSA informed us that the audit should be
                closed by 9/30/2007 in AARTS.




                                                         37
Report Number                        Report Title                           Date Issued      Total       No. of
                            (Prior SAR Number and Page)                                    Monetary    Recommen-
                                                                                           Findings      dations
A04E0001        Review of Student Enrollment and Professional                9/23/04      $2,458,347        7
                Judgment Actions at Tennessee Technology Center at
                Morristown, TN (SAR 49, pg 14)
                Status: FSA informed us that on 3/1/2007 OCFO-
                PAG signed the administrative stay memo extending the
                administrative stay until 6/10/2007. Required
                administrative stay requests and/or extensions have not
                been generated through AARTS.
A05E0013        Audit of the Administration of the Student Financial         2/25/05      $1,645,160      3
                Assistance Programs at the Ivy Tech State College
                Campus in Gary, Indiana, During the Period July 1,
                2002, through June 30, 2003 (SAR 50, pg 21)
                Status: FSA informed us that the audit is currently
                being reviewed by FSA Chicago Case Team.
A0670005        Professional Judgment at Yale University (SAR 36, pg         3/13/98       $5,469         3
                18)
                Status: FSA informed us that it is waiting on policy
                decision to address and resolve this finding in the final
                audit determination letter.
A0670009        Professional Judgment at University of Colorado (SAR         7/17/98       $15,082        4
                37, pg 17)
                Status: FSA informed us that it is waiting on policy
                decision to address and resolve this finding in the final
                audit determination letter.
A06D0018        Audit of Saint Louis University’s Use of Professional        2/10/05      $1,458,584      6
                Judgment for the Two-Year Period from July 2000
                through June 2002 (SAR 50, pg 21)
                Status: FSA informed us that on 3/1/2007 OCFO-PAG
                signed the administrative stay memo extending the
                administrative stay until 6/23/2007. Required
                administrative stay extension request has not been
                generated through AARTS.
A0723545        State of Missouri, Single Audit Two Years Ended June          4/1/93      $1,048,768     18
                30, 1991
                Status: FSA informed us that there is no change in
                status.
A0733123        State of Missouri, Single Audit Year Ended June 30,           3/7/94      $187,530       18
                1992
                Status: FSA informed us that there is no change in
                status.
A09D0024        American River College’s Compliance with Student             12/1/04      $3,024,665      3
                Eligibility Requirements for Title IV Student Aid
                Programs (SAR 50, pg 21)
                Status: FSA informed us that the audit is currently
                being reviewed by its San Francisco Case Team.



                                                          38
Report Number                        Report Title                          Date Issued      Total         No. of
                            (Prior SAR Number and Page)                                   Monetary      Recommen-
                                                                                           Findings      Dations
A09F0008        University of Phoenix’s Processing of Return of             12/22/05     (see note 2)       3
                Federal Student Aid for HEA, Title IV Programs (SAR
                51, pg 26)
                Status: FSA informed us that the audit is currently
                being reviewed by its San Francisco Case Team.
N0690010        Inspection of Parks College's Compliance with Student        2/9/00       $169,390          1
                Financial Assistance Requirements (SAR 40, pg 18)

                Status: FSA previously informed us that FSA Dallas
                Case Team denied school’s recertification on
                December 31, 1999. School closed February 5, 2000.
OCFO
A02E0008        U.S. Department of Education Funds Disbursed for            6/14/05      $6,756,824         8
                New York City Department of Education
                Telecommunication Services (SAR 51, pg 26)
                Status: No comments were provided to OIG.
A03F0010        The Education Leaders Council’s Drawdown and                1/31/06       $760,570          12
                Expenditure of Federal Funds (SAR 52, pg 8) (OII also
                designated as action official)
                Status: No comments were provided to OIG.
A05D0041        University of Illinois at Chicago’s Upward Bound            12/20/04      $223,057          8
                Project (OPE also designated as action official) (SAR
                50, pg 22)
                Status: OCFO informed us that it is reviewing
                additional information provided by the auditee.
A05E0002        Audit of the University of Illinois at Chicago’s Student    12/15/04      $260,050          6
                Support Services Program (OPE also designated as
                action official) (SAR 50, pg 22)
                Status: OCFO informed us that it is reviewing
                additional information provided by the auditee.
A05E0018        University of Illinois at Chicago’s Upward Bound Math       12/17/04      $274,493          7
                and Science Project (OPE also designated as action
                official) (SAR 50, pg 22)
                Status: OCFO informed us that it is reviewing
                additional information provided by the auditee.
A07D0002        Audit of the Talent Search Program at Case Western          7/11/03       $212,428          5
                Reserve University (SAR 47, pg 14)
                Status: OCFO informed us that it is continuing to
                work with OPE to resolve the monetary findings in the
                audit report.
A09F0010        Pittsburg Pre-School and Community Council, Inc.’s          3/17/06       $910,217          21
                Use of Early Reading First and Migrant Education
                Even Start Grant Funds (SAR 52, pg 9) (OESE also
                designated as action official)
                Status: OCFO informed us that it has been working
                with OGC in drafting questions for the auditee to
                respond to.
                                                          39
Report Number                        Report Title                          Date Issued     Total          No. of
                            (Prior SAR Number and Page)                                   Monetary      Recommen-
                                                                                          Findings        dations
A09F0020        Sheldon Jackson College’s Administration of Fund for        2/24/06                          2
                the Improvement of Postsecondary Education Grants
                (SAR 52, pg 11) (OPE also designated as action
                official)
                Status: OCFO informed us that it has been working
                with OGC and OPE in preparing a draft program
                determination letter.
OESE
A02E0031        Wyandanch Union Free School District’s ESEA, Title I,       9/14/05      $6,802,887         8
                Part A and Title II Non-Salary Expenditures for the                      (see note 3)
                Period July 1, 1999, through June 30, 2004 (SAR 51,
                pg 27)
                Status: Previously reported, the Program
                Determination Letter (PDL) was issued on 9/30/2006.
                Audit will be removed from the overdue listing after all
                actions are completed in AARTS.
A04F0011        Audit of the Georgia Department of Education’s              1/12/06                         7
                Migrant Education Program (SAR 52, pg 4)
                Status: OESE informed us that the audit is pending a
                Departmental review.
A05C0012        Audit of East Cleveland City Schools' Administration        9/18/02       $349,637          9
                of the 21st Century Community Learning Centers Grant
                at Kirk Middle School for the Period June 1, 1998,
                through December 31, 2001 (SAR 45, pg 18)
                Status: OESE informed us that the audit is pending a
                Departmental review.
A06E0008        Audit of the Title I Funds Administered by the Orleans      2/16/05      $73,936,273        7
                Parish School Board for the Period July1, 2001,
                through December 31, 2003 (SAR 50, pg 23)
                Status: OESE informed us that the audit is pending a
                Departmental review.
A06E0012        Audit of the Title I Funds Administered by the Caddo        12/7/04       $488,314          1
                Parish School District, for the Period July 1, 2001,
                through December 31, 2003 (SAR 50, pg 23)
                Status: OESE informed us that OIG has concurred
                with the PDL. Program Office is finalizing the PDL.
A06E0017        Title I Funds Administered by the Beauregard Parish         12/16/04      $540,443          5
                School District, for the Period July 1, 2001, through
                December 31, 2003 (SAR 50, pg 23)
                Status: OESE informed us that OIG has concurred
                with the PDL. Program is finalizing the PDL.
A06E0018        Title I Funds Administered by the East Baton Rouge           6/8/05       $148,246          4
                Parish School District for the Period July 1, 2001,                      (see note 4)
                through December 31, 2003 (SAR 51, pg 27)
                Status: OESE informed us that the audit is pending a
                Departmental review.


                                                          40
Report Number                            Report Title                               Date Issued      Total        No. of
                                (Prior SAR Number and Page)                                        Monetary     Recommen-
                                                                                                   Findings       dations
A06F0013         Oklahoma State Department of Education’s Migrant            3/21/06               $509,000          3
                 Education Program (SAR 52, pg 4)
                 Status: Pending resolution due to Oklahoma
                 implementing a corrective action plan for MEP as it
                 pertains to a defect rate on its child eligibility
                 determination.
A07F0014         The U.S. Department of Education’s Activities            12/29/05                                  4
                 Relating to Consolidating Funds in Schoolwide
                 Programs Provisions (SAR 52, pg 10)
                 Status: Internal Audit. OESE informed us its
                 response was submitted to OIG 12/28/05. Ongoing
                 Corrective Action (CAP) status. Final Audit Report
                 was issued on 12/29/2005. OIG agreed with the
                 proposed corrective action plan on 2/2/07, but the audit
                 has not been submitted for resolution through AARTS.
OPE
A07B0011         Audit of Valencia Community College’s Gaining Early                  5/8/03      $1,822,864        5
                 Awareness and Readiness for Undergraduate Programs
                 Matching Requirement (SAR 47, pg 15)
                 Status: OPE informed us it continues to work on this
                 audit.
OSERS
A02B0014         Audit of the Puerto Rico Vocational Rehabilitation                  6/26/02      $15,800,000       5
                 Administration (SAR 45, pg 18)
                 Status: OSERS agrees that the audit is open.
A02E0020         The Virgin Islands Department of Health’s                           9/28/05                       17
                 Administration of the Infants and Toddlers Program
                 (see note 5) (SAR 51, pg 28)
                 Status: OSERS agrees that the audit is open.
        Note 1 - Audit Report A07F0017 contained a one-time better use of funds
                 (BUF) of $882,000,000
        Note 2 - Audit Report A09F0008 identified a one-time BUF of $10,000,000

        Note 3 - Audit Report A02E0031 identified recommended adjustments of
                 $5,913,394
        Note 4 - Audit Report A06E0018 reported that $1,000 related to a check
                 writing error was recovered during the audit. This money was not
                 included in questioned or unsupported costs
        Note 5 - We identified $327,577 in one-time BUF in audit A02E0020




                                                                  41
Table 7: Statistical Profile: October 1, 2006, to March 31, 2007
                                                                                                    Six-Month Period
                                                                                                    Ending 3/31/2007
OIG Audit Reports Issued                                                                                   34
Questioned Costs                                                                                      $447,259,268
Unsupported Costs                                                                                     $113,837,121
Recommendations for Better Use of Funds                                                                     $0
Other OIG Products Issued                                                                                  12
(2 Alert Memoranda, 2 Attestation Reports, 1 Audit Closeout Letter, 1 Inspection, 1 Interim Audit
Memorandum, 4 Management Information Reports, 1 Special Project)
OIG Audit Reports Resolved By Program Managers                                                            44
Questioned Costs Sustained                                                                             $9,912,714
Unsupported Costs Sustained                                                                           $27,055,127
Additional Disallowances Identified by Program Managers                                               $14,314,236
Management Commitment to the Better Use of Funds                                                     $230,721,199
Investigative Case Activity
Cases Opened                                                                                               87
Cases Closed                                                                                               71
Cases Active at the End of the Reporting Period                                                           382
Prosecutorial Decisions                                                                                   191
   - Accepted                                                                                              92
   - Denied                                                                                                99
Investigative Results
Indictments/Informations                                                                                   57
Convictions/Pleas                                                                                          59
Fines Ordered                                                                                           $12,600
Restitution Payments Ordered                                                                         $3,373,295.95
Civil Settlements/Judgements (number)                                                                      6
Civil Settlements/Judgements (amount)                                                                  $482,452
Recoveries                                                                                              $91,324.50
Forfeitures/Seizures                                                                                       0
Savings                                                                                                $246,620.69




                                                           42
     Anyone knowing of fraud, waste or abuse involving
U.S. Department of Education funds or programs should call,
       write or e-mail the Office of Inspector General.
                             Call toll-free:
                     The Inspector General Hotline
                  1-800-MISUSED (1-800-647-8733)

                               Or write:
                       Inspector General Hotline
                     U.S. Department of Education
                      Office of Inspector General
                           550 12th St., S.W.
                       Washington, DC 20024

                               Or e-mail:
                           oig.hotline@ed.gov

        Your report may be made anonymously or in confidence.

               For information on identity theft prevention
                     for students and schools, visit the
          Office of Inspector General Identity Theft Web site at:
                            www.ed.gov/misused




              Our mission is to ensure equal access to education
        and to promote educational excellence throughout the nation.
                                www.ed.gov
